<html>
<title> - ELIMINATING BARRIERS TO EMPLOYMENT: OPENING DOORS TO OPPORTUNITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        ELIMINATING BARRIERS TO
                       EMPLOYMENT: OPENING DOORS
                             TO OPPORTUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 21, 2019

                               __________

                           Serial No. 116-24

                               __________

      Printed for the use of the Committee on Education and Labor
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-599 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
            
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                 
                                ------ 
                                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 21, 2019.....................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     4
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     6
        Prepared statement of....................................     7

Statement of Witness:
    Bird, Ms. Kisha, M.S.S./M.S.L.P. Director, Youth Policy 
      Center forLaw and Social Policy (CLASP)....................    53
        Prepared statement of....................................    55
    McCann, Ms. Laurie, J.D., Senior Attorney, AARP Foundation 
      Litigation.................................................     9
        Prepared statement of....................................    12
    Pianko, Mr. Daniel, Managing Director, University VenturesS..    31
        Prepared statement of....................................    33
    Roos, Mr. Shayne, Senior Vice President, Achieva Support, 
      Achieva....................................................    22
        Prepared statement of....................................    24

Additional Submissions:
    Mrs. Foxx:
        Prepared statement from Seyfarth Shaw....................   126
        Prepared statement from Accses...........................   135
        Chart: Impact of Family Structure On Student Suspension 
          Rates..................................................   139
        Letter dated June 4, 2019 from Littler, Workplace Policy 
          Institute (WPI)........................................   141
        Prepared statement from the U.S. Chamber of Commerce.....   146
    Jayapal, Hon. Pramila, a Representative in Congress from the 
      State of Washington:
        Examining the Role of Job Separations In Black-White 
          Labor Market Disparities...............................   147
    Chairman Scott:
        Letter dated May 1, 2019 from Collaboration To Promote 
          Self-Determination (CPSD)..............................   161
        Letter dated May 27, 2019 from Congress of the United 
          States.................................................   158
        Letter dated May 29, 2019 from Collaboration To Promote 
          Self-Determination (CPSD)..............................   159
        Link: National Disability Employment Policy..............   167
        Link: Advisory Committee on Increasing Competitive 
          Integrated Employment for Individuals With Disabilities 
          (ACICIEID).............................................   167
        Link: The State of Age Discrimination and Older Workers 
          In the U.S. 50 Years After the Age Discrimination In 
          Employment Act (ADEA)..................................   167
    Questions submitted for the record by:
        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota 

        Chairman Scott...........................................   175
    Responses to questions submitted for the record by:
        Ms. Bird.................................................   177
        Ms. McCann...............................................   178
        Pianko...................................................   180
        Mr. Roos.................................................   181

 
                        ELIMINATING BARRIERS TO
                       EMPLOYMENT: OPENING DOORS
                             TO OPPORTUNITY

                              ----------                              


                         Tuesday, May 21, 2019

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Robby C. 
``Bobby'' Scott [chairman of the committee] presiding.
    Present: Representatives Scott, Davis, Grijalva, Courtney, 
Sablan, Wilson, Bonamici, Takano, Adams, DeSaulnier, Norcross, 
Jayapal, Morelle, Wild, Harder, McBath, Schrier, Underwood, 
Hayes, Shalala, Levin, Omar, Trone, Stevens, Lee, Trahan, 
Castro, Foxx, Roe, Walberg, Grothman, Stefanik, Allen, Smucker, 
Banks, Walker, Cline, Fulcher, Taylor, Watkins, Wright, Meuser, 
Timmons, and Johnson.
    Staff Present: Katie Berger, Professional Staff; Nekea 
Brown, Deputy Clerk; Ilana Brunner, General Counsel; Emma 
Eatman, Press Assistant; Carrie Hughes, Director of Health and 
Human Services; Eli Hovland, Staff Assistant; Bertram Lee, 
Policy Counsel; Katie McClelland, Professional Staff; Richard 
Miller, Director of Labor Policy; Max Moore, Office Aid; Udochi 
Onwubiko, Labor Policy Counsel; Veronique Pluviose, Staff 
Director; Carolyn Ronis, Civil Rights Counsel; Banyon Vassar, 
Deputy Director of Information Technology; Courtney Butcher, 
Minority Director of Coalitions and Member Services; Bridget 
Handy, Minority Legislative Assistant; Amy Raaf Jones, Minority 
Director of Education and Human Resources Policy; John Martin, 
Minority Workforce Policy Counsel; Hannah Matesic, Minority 
Director of Operations; Kelley McNabb, Minority Communications 
Director; Jake Middlebrooks, Minority Professional Staff 
Member; Casey Nelson, Minority Staff Assistant; Brandon Renz, 
Minority Staff Director; Alex Ricci, Minority Professional 
Staff Member; Ben Ridder, Minority Legislative Assistant; and 
Meredith Schellin, Minority Deputy Press Secretary and Digital 
Advisor.
    Chairman SCOTT. The Committee on Education and Labor will 
come to order. I want to welcome everyone to the committee and 
note that a quorum is present, and also note that 100 years ago 
today, May 21, 1919, U.S. Representative James R. Mann, a 
Republican from Illinois and Chair of the Suffrage Committee, 
proposed the House resolution to approve the Susan B. Anthony 
Amendment granting women the right to vote. The measure passed 
the full House 100 years ago by a vote of 304 to 89, 42 votes 
above the required 2/3 majority.
    Ms. FOXX. Mr. Chairman?
    Chairman SCOTT. The gentlelady from North Carolina.
    Ms. FOXX. A short point of person privilege.
    We were told this morning by the leading Republican in the 
House that the first bill was introduced by a Republican from 
California back in the 1800s. So we are very proud of our 
leadership in this effort.
    Chairman SCOTT. I thank the gentlelady.
    The Committee is meeting today in a legislative hearing to 
hear testimony on eliminating barriers to employment, opening 
doors to opportunity.
    Pursuant to Committee Rule 7c, opening statements are 
limited to the Chair and Ranking Member. This allows us to hear 
from our witnesses sooner and provides all members with 
adequate time to ask questions.
    I will recognize myself for the purpose of making an 
opening statement.
    Today's legislative hearing will examine barriers keeping 
Americans out of the workforce, and also to identify 
legislative solutions to expand opportunity.
    Despite the overall strength of the economy, too many still 
face a range of obstacles to employment, including 
discrimination, that undermines opportunities to take part in 
the benefits of work. For example, older workers, workers with 
disabilities, disconnected youth, and returning citizens are 
often left behind in today's economy.
    Our witnesses here today will help us understand the 
challenges facing each of these groups and how Congress can 
help solve those problems.
    For older Americans age discrimination is a significant 
barrier to opportunities, and when older workers lose their 
jobs they are far more likely than other workers to join the 
ranks of the long-term unemployed.
    In 1967, Congress enacted the Age Discrimination in 
Employment Act, or ADEA, to prohibit age discrimination in the 
workplace. The ADEA is an integral part of the civil rights 
legislation enacted during the 1960s to ensure equal 
opportunity in the workplace, along with the Equal Pay Act of 
1963 and Title VII of the Civil Rights Act of 1964. When 
Congress passed the ADEA it recognized that age discrimination 
was caused primarily by the unfounded assumption that age 
impacted ability. Unfortunately, protections for older workers 
were undercut by the Supreme Court's decision in Gross v. FBL 
Financial Services, which imposed a higher burden of proof of 
age discrimination. This 5-4 decision overturned precedent by 
requiring individuals to prove that age discrimination was the 
sole motivating cause for the employer's adverse action rather 
than just a motivating factor of the employer's adverse action. 
The plaintiff in that case, Mr. Gross, is in the audience 
today. Mr. Gross, welcome.
    The Protecting Older Workers Against Discrimination Act, or 
POWADA, is a legislative fix that would restore the pre-2009 
evidentiary threshold applied to age discrimination claims. 
Reinstating the mixed motive test aligns the burden of proof 
for age discrimination with the same standards for proving 
discrimination based on sex, race, religion, and national 
origin.
    I want to thank the lead co-sponsor of this important 
legislation, the gentleman from Wisconsin, Mr. Sensenbrenner, 
for his continued commitment for fighting against age 
discrimination.
    Individuals with disabilities also have long suffered from 
barriers to competitive integrated employment. Today an 80 year 
old provision in the Fair Labor Standards Act, known as Section 
14(c), empowers employers to obtain a certificate which allows 
them to pay workers with disabilities a sub-minimum wage. More 
than 130,000 employees with disabilities are employed under 
14(c) certificates. While intended as transitional employment, 
at least 95 percent of individuals with disabilities who enter 
sub-minimum wage jobs never obtain competitive employment even 
though with appropriate support most could in fact earn at 
least the minimum wage.
    We have the responsibility to eliminate 14(c), written in 
1938, under the belief that individuals with disabilities were 
necessarily significantly less productive than individuals 
without disability, and presumably unable to earn even the 
minimum wage.
    The H.R. 873, the Transformation to Competitive Employment 
Act, is a bipartisan proposal that reflects this responsibility 
and phases out the 14(c) sub-minimum wage nationwide over a 6 
year period. The bill provides $300 million for the Department 
of Labor to award grants to states and 14(c) certificate 
holders to help workers with disabilities transition into 
competitive integrated employment. It includes the grant to 
subsidize wages for the few who cannot, in fact, make at least 
the minimum wage but still desire to work to the best of their 
ability. It also incentivizes states and businesses to work 
with good faith towards implementing competitive integrated 
employment for all workers with disabilities.
    One of today's witnesses, Shane Roos, will show how his 
organization proactively transitions their employees into 
competitive integrated employment settings. Their success 
demonstrated that it is both feasible and socially beneficial 
to remove most of these individuals from segregated settings.
    Finally, today's hearing is an opportunity to explore the 
benefits of investing in millions of young Americans who are 
disconnected from school or the workforce. The research 
indicates that approximately 11 percent of young people aged 
16-24, that is about 4.5 million people, are neither employed 
nor in school. Studies show that disconnected youth can cost 
nearly $400,000 in earnings over their lifetime and cost our 
communities $25 billion in healthcare, public assistance, and 
incarceration costs every year.
    Once again, this is a missed opportunity for individuals 
and our economy, which is partly why we refer to these specific 
young people as ``opportunity youth''. The Workforce Innovation 
and Opportunity Act of 2014 increased opportunities for youth 
with significant barriers to employment by requiring 75 percent 
of funding for youth activities to be spent on out of school 
youth.
    As this Committee considers reauthorizing this key 
workforce development law, we must prioritize strengthening 
evidence based programs, such as summer jobs programs, that 
help underserved youth remain connected or reconnected to the 
education and employment. According to at least one study, a 
summer jobs program in Chicago actually saved more money by 
reducing crime and other social pathology, saved more than it 
cost.
    So similarly, we must ensure that returning citizens must 
have the support needed to reenter the workforce. Today, 
roughly one in three Americans has a criminal record. More than 
600,000 Americans return to their communities from 
incarceration each year and they face a majority of employers 
who are unwilling to hire them. That barrier is particularly 
challenging for men of color who are disproportionately 
incarcerated.
    In 2013 a National Institute of Health report found that as 
incarceration increases, African Americans face greater 
obstacles to employment compared to white Americans, creating--
and I quote from that study--''a new form of institutional 
racism with wide reaching economic benefits''. The EEOC even 
responded to this discrimination a few years ago by issuing 
guidance that a blanket policy of denying employment for 
persons with any criminal record without an individualized 
consideration, such as seriousness of the crime, the relevance 
to the job, and the time since the conviction, that if you have 
a blanket policy against hiring people with a criminal record, 
that could result in a finding of illegal employment 
discrimination. But if we follow the evidence, we will find 
that supporting employment for many returning citizens yields 
widespread benefits, including increased earnings for 
individuals, cost savings through reduced recidivism, 
strengthened public safety, higher taxpayer revenues, and, of 
course, a source of good workers in today's tight job market.
    Today's hearing is an opportunity for us to consider the 
barriers to employment that impact a wide range of communities, 
as well as our responsibility to use our legislative mandate to 
remove these barriers.
    I look forward to the testimony of our witnesses who can 
help inform this Committee on eliminating barriers to 
employment. Doing so will mean that America's workers will be 
better off, our economy will be stronger, and our communities 
healthier.
    I want to thank our witnesses for being with us today, and 
yield to our Ranking Member Dr. Foxx for the purpose of making 
an opening statement.
    [The statement by Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Today's legislative hearing will examine barriers keeping Americans 
out of the workforce and also identify legislative solutions to expand 
opportunity.
    Despite the overall strength of the economy, too many still face a 
range of obstacles to employment, including discrimination, that 
undermines opportunities to take part in the benefits of work. For 
example, older workers, workers with disabilities, disconnected youth, 
and returning citizens are often left behind in today's economy.
    Our witnesses here today will help us understand the challenges 
facing each of these groups and how Congress can help solve those 
problems.
    For older Americans, age discrimination is a significant barrier to 
opportunities. And when older workers lose their jobs, they are far 
more likely than other workers to join the ranks of the long- term 
unemployed.
    In 1967, Congress enacted the Age Discrimination in Employment Act, 
or the ADEA, to prohibit age discrimination in the workplace. The ADEA 
was an integral part of civil rights legislation enacted during the 
1960s to ensure equal opportunity in the workplace, along with the 
Equal Pay Act of 1963, and Title VII of the Civil Rights Act of 1964. 
When Congress passed the ADEA, it recognized that age discrimination 
was caused primarily by the unfounded assumption that age impacted 
ability.
    Unfortunately, protections for older workers were undercut by the 
Supreme Court's decision in Gross v. FBL Financial Services, Inc., 
which imposed a higher burden of proof for age discrimination. This 5-4 
decision overturned precedent by requiring individuals to prove that 
age discrimination was the sole motivating cause for the employer's 
adverse action, rather than just a motivating factor in the employer's 
adverse action. The plaintiff in that case, Mr. Gross, is in the 
audience today. Welcome, Mr. Gross. The Protecting Older Americans 
Against Discrimination Act (POWADA), is legislative fix that would 
restore the pre-2009 evidentiary threshold applied in age 
discrimination claims. Reinstating the mixed-motive test aligns the 
burden of proof for age discrimination with the same standards for 
proving discrimination based on sex, race, religion, and national 
origin. I want to thank the lead co-sponsor of this important 
legislation, the gentleman from Wisconsin, Mr. Sensenbrenner, for his 
continued commitment to fighting age discrimination.
    Individuals with disabilities have also long-suffered from barriers 
to competitive integrated employment. Today, an 80-year-old provision 
in the Fair Labor Standards Act, known as Section 14(c), empowers 
employers to obtain a certificate, which allows them to pay workers 
with disabilities a subminimum wage. More than 130,000 employees with 
disabilities are employed under 14(c) certificates. While intended as 
transitional employment, at least 95 percent of individuals with 
disabilities who enter subminimum wage jobs never obtain competitive 
employment even though, with appropriate support, most could make the 
minimum wage.
    We have a responsibility to eliminate Section 14(c), written in 
1938 under the belief that individuals with disabilities were 
necessarily and significantly less productive than individuals without 
disabilities and presumably unable to earn the minimum wage.
    H.R. 873, the Transformation to Competitive Employment Act, is a 
bipartisan proposal that reflects this responsibility and phases out 
the 14(c) subminimum wage nationwide over a six-year period. The bill 
provides $300 million for the Department of Labor to award grants to 
states and 14(c) certificate holders to help workers with disabilities 
transition into competitive integrated employment. It includes a grant 
to subsidize wages for the few who cannot, in fact, make at least the 
minimum wage, but still desire to work to the best of their abilities. 
It also incentivizes states and businesses to work in good faith toward 
fully implementing competitive integrated employment for all workers 
with disabilities.
    One of today's witnesses, Shayne Roos, will show how his 
organization proactively transitioned their employees into competitive 
integrated employment settings. Their success demonstrated that it is 
both feasible and socially beneficial to remove most of. these 
individuals from segregated settings.
    Finally, today's hearing is an opportunity to explore the benefits 
of investing in the millions of Americans of young Americans who are 
disconnected from school or the workforce.
    Research indicates that approximately 11 percent of young people 
aged 16 to 24--about 4.5 million people--are neither employed nor in 
school. Studies show that disconnection can cost youth nearly $400,000 
in earnings over their lifetimes and cost our communities more than $25 
billion in health care programs, public assistance, and incarceration 
costs every year.
    Once again, this is a missed opportunity for individuals and our 
economy, which is partly why we refer to these specific young people as 
``opportunity youth.'' The Workforce Innovation and Opportunity Act of 
2014 increased opportunities for youth with significant barriers to 
employment by requiring 75 percent of funding for ``Youth Activities'' 
be spent on out-of-school youth.
    As this Committee considers reauthorizing this key workforce 
development law, we must prioritize strengthening evidence-based 
programs, such as summer jobs programs, that help underserved youth 
remain connected or reconnect to education and employment. According to 
at least one study, a summer jobs programs in Chicago actually saved 
more money by reducing crime and other social pathology, saved more 
than it cost.
    Similarly, we must ensure that returning citizens have the support 
needed to re-enter the workforce. Today, roughly one in three Americans 
has a criminal record. More than 600,000 Americans return to 
communities from incarceration each year. They face a majority of 
employers who are unwilling to hire them. That barrier is particularly 
challenging for men of color, who are disproportionally incarcerated.
    A 2013 National Institute of Health report found that, as 
incarceration rates increase, African Americans face greater obstacles 
to employment compared to White Americans, creating--and I quote from 
the study--a new form of institutional racism with wide-reaching 
economic effects.
    The EEOC even responded to this discrimination a few years ago, 
issuing guidance that a blanket policy of denying employment for 
persons with any criminal record without an individualized 
consideration, such as seriousness of the crime, the relevance to the 
job, and the time since the conviction, could result in a finding of 
illegal employment discrimination.
    If we follow the evidence, we will find that supporting employment 
for returning citizens yields widespread benefits, including increased 
earnings for individuals, higher taxpayer revenues, cost savings 
through reduced recidivism, and strengthened public safety,
    Today's hearing is an opportunity for us to consider the barriers 
to employment that impact a wide range of communities as well as our 
responsibility to use our legislative mandate to remove these barriers.
    I look forward to the testimony of our witnesses who can help to 
inform this Committee on eliminating barriers to employment. Doing so 
will mean that America's workers will be better off, our economy will 
be stronger, and our communities are healthier.
    Thank you to the witnesses for joining us today. I now yield to the 
Ranking Member, Dr. Foxx, for the purpose of making an opening 
statement.
                                 ______
                                 
    Ms. FOXX. Thank you, Mr. Chairman, for yielding time.
    This hearing is supposedly about barriers to employment, 
not opportunities for Federal spending, Federal involvement, 
and Federal power. We could use a little truth in advertising 
today.
    It seems our colleagues on the other side have done their 
level best to have a hearing about employment without 
addressing the role of education; or, put another way, skills 
development. That shows two things. First, a fundamental 
disregard for why this Committee exists to do what it does, 
education policy and workforce policy in tandem, side by side, 
cause and effect. Second, it shows a tone deafness about the 
current state of the American economy. We have historic job 
growth, historic wage growth, and a historic number of job 
openings. Employment opportunities abound, but the skills gap 
persists and grows.
    Looking at individual policies outside of the role of 
education is not the way to approach this question of opening 
doors for Americans. It is the siloed, piecemealed approaches 
that have gotten us here. When will we learn?
    The American dream was founded on the premise that 
individuals are free and capable of improving their lives, of 
living better, and climbing higher than their ancestors before 
them. As representatives of millions of people who still cling 
to these hopes, anything Congress can responsibly do to help 
increase opportunity for all Americans in the workforce, 
especially those with disadvantages, it ought to do. But 
history has shown us it is not the Federal government, but the 
innovation and initiative of individual Americans themselves 
that has successfully broken down barriers.
    Though in the past we seemed to agree more on what the 
barriers to success are and how to remedy them, today Democrats 
see barriers as opportunities to increase Federal power. 
Republicans see barriers as opportunities to enable individual 
empowerment.
    If we really want to lift the barriers that stifle 
Americans trying to enter and thrive in the workplace, we need 
to propose remedies that reduce the skills gap and prepare 
individuals to fill the plethora of available high-quality jobs 
in this country. It cannot be over emphasized that all 
education is career education. We will get nowhere in our 
efforts to close the skills gap and fill these millions of open 
jobs if we do not make postsecondary education reform the focus 
of our efforts. Apprenticeships, earn and learn opportunities, 
stackable credentials, a fair and full view of what 
postsecondary education is and should be. This is the key to 
opening doors to opportunity and prosperity, not a more 
reactionary Federal government.
    The promise of higher education is broken, and Federal law 
perpetuates this failing system. By reforming the Higher 
Education Act to leverage employer expertise, allow for 
innovative ways to gain skills and stackable credentials, and 
encourage lifelong learning, Congress can help close the skills 
gap and unleash the economic potential of Americans nationwide.
    Our previous efforts, like Strengthening the Career and 
Technical Education for the 21st Century Act, and WIOA, 
provided lucrative results for the American worker by 
supporting his or her progress and development. These policies 
have asserted that the answers are closer to home than an 
influx of government spending and programs. We have recognized 
that education and workforce development are one in the same in 
the past and we must do the same going forward.
    As legislators working to remove the barriers to economic 
and employment success for all Americans, especially the 
disadvantaged, it is critical that we keep this approach in 
mind. Our success is an individual success and removing 
barriers should mean less government overreach and involvement, 
not more.
    Thank you, Mr. Chairman. I yield back.
    [The statement by Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    This hearing is supposedly about barriers to employment, not 
opportunities for Federal spending, Federal involvement, and Federal 
power. We could use a little truth in advertising today.
    It seems our colleagues on the other side have done their level 
best to have a hearing about employment without addressing the role of 
education. Or put another way, skills development. That shows two 
things. First, a fundamental disregard for why this Committee exists lo 
do what it does--education policy and workforce policy, in tandem, 
side-by-side, cause and effect. Second, it shows a tone-deafness about 
the current state of the American economy. We have historic job growth, 
historic wage growth. and an historic number or job openings. 
Employment opportunities abound, but the skills gap persists and grows.
    Looking at individual policies outside of the role of education is 
not the way to approach this question of opening doors for Americans. 
It's these siloed, piecemealed approaches that have gotten us here. 
When will we learn? The American dream was founded on the premise that 
individuals are free, and capable of improving their lives, of living 
better and climbing higher than their ancestors before them. As 
representatives of millions of people who still cling to these hopes, 
anything Congress can responsibly do lo help increase opportunity for 
all Americans in the workforce. especially those with disadvantages, it 
ought lo do. Bui history has shown us that it is not the Federal 
government, but the innovation and initiative of individual Americans 
themselves, that has successfully broken downbarriers.
    Thoughin the past we seemed to agree more on what the barriers to 
success are and how to remedy them. today, Democrats see barriers as 
opportunities to increase federal power. Republicans see barriers as 
opportunities lo enable individual empowerment.
    If we really want lo lift the barriers that stifie Americans trying 
to enter and thrive in the workforce, we need to propose remedies that 
reduce the skills gap and prepare individuals lo fill the plethora of 
available, high-quailty jobs in this country. It cannot be 
overemphasized that all education is career education. We will get 
nowhere in our efforts lo close the skills gap and fill these millions 
of open jobs if we do not make postsecondary education reform the locus 
of our efforts. Apprenticeships. Earn and learn opportunities. 
Stackable credentials. A fair and full view of what postsecondary 
education is and should be. This is the key lo opening doors lo 
opportunity and prosperily,110/ a more reactionary federal government.
    The promise of higher education is broken, and federal law 
perpetuates this failing system. By reforming the Higher EducationAct 
to leverage employer expertise. allow for innovative ways to gain 
skills and stackable credentials, and encourage lifelong learning, 
Congress can help close the skills gap and unleash the economic 
potential of Americans nationwide.
    Our previous efforts like Strengthening the Career and Technical 
Education for the 21s, Century Act and WIOA provided lucrative results 
for the American worker by supporting his or her progress and 
development. These policies have asserted that the answers are closer 
to home than an influx of government spending and programs. We have 
recognized that education and workforce development are one in the same 
in the past, and we must do the same going forward.
    As legislators working to remove the barriers to economic and 
employment success for all Americans, especially the disadvantaged. if 
s critical that we keep this approach in mind. Our success is an 
individual's success. and removing barriers should mean less government 
overreach and involvement. not more.
                                 ______
                                 
    Chairman SCOTT. Thank you. Without objection, other Members 
who wish to insert written statements into the record may do so 
by submitting them to the Committee Clerk electronically in 
Microsoft Word format by 5:00 o'clock on Tuesday, June 4, 2019.
    I will now introduce our witnesses.
    Our first witness is Laurie McCann, who is a senior 
attorney with the AARP. Her principal responsibility includes 
litigation and an amicus curiae participation for AARP on a 
broad range of age discrimination and other employment issues.
    Shane Roos is the Senior Vice President of ACHIEVA Support 
located in Pittsburgh, Pennsylvania, a nonprofit organization 
that serves thousands of people with disabilities and their 
families each year. He oversaw ACHIEVA's vocational 
transformation, including the shuttering of five sheltered 
workshops and the phase-out of their 14(c) certificates.
    Daniel Pianko is Co-Founder and Managing Director at the 
University Ventures. He leads the firm's investments in 
education related ventures.
    Kisha Bird is the Director of the youth policy at the 
Center for Law and Social Policy, or CLASP. She has expertise 
in youth development, workforce development policy, reentry and 
career pathways, with a focus on equity, opportunity, youth, 
and individuals impacted by the criminal justice system.
    We appreciate all of our witnesses for being here and look 
forward to your testimony.
    Let me remind you that we have read your written statements 
and they will appear in full in the record.
    Pursuant to Rule 7d and Committee practice, each of you is 
asked to limit your oral presentation to a 5 minute summary of 
your written statement.
    Before you begin your testimony, please remember to press 
the button in front of you on the microphone so it will turn on 
and Members can hear you. As you begin to speak, the light in 
front of you will turn green. After 4 minutes the light will 
turn yellow and you will have 1 minute remaining. When the 
light turns red, your 5 minutes have expired and we ask you to 
please wrap up.
    We will let the entire panel make presentations before we 
move to Member questions. When answering a question please 
remember, once again, to activate your microphone.
    I will first recognize Ms. McCann.

    TESTIMONY OF LAURIE MCCANN, J.D., SENIOR ATTORNEY, AARP 
                     FOUNDATION LITIGATION

    Ms. MCCANN. Thank you.
    Chairman Scott, Ranking Member Foxx, and Members of the 
Committee, on behalf of our nearly 38 million members, and all 
older Americans, AARP thanks you for inviting us to testify on 
employment barriers facing older works and H.R. 1230, the 
Protecting Older Workers Against Discrimination Act, or POWADA.
    It is simply good business to recruit and to retain talent, 
regardless of age. The 50+ segment of the workforce is the most 
engaged cohort across all generations, yet older workers 
continue to face numerous obstacles to employment, barriers 
that cannot be fully addressed in one hearing.
    Today I will focus on the most significant barrier older 
workers face, age discrimination. Age discrimination in the 
workplace remains disturbingly pervasive. Three in five older 
workers report that they have seen or experienced age 
discrimination on the job. Fifty-six percent of all older 
workers are pushed out of their long-time jobs before they 
choose to retire, and only one in ten of those workers will 
ever again earn as much as they did before. Discrimination in 
hiring is common, but less visible, and much harder to prove. 
Experimental studies document that employers are less likely to 
call back older applicants for an interview and women face even 
more age discrimination in hiring than men.
    There are many best practices employers can and do adopt to 
help prevent discrimination, but such efforts are no substitute 
for strong legal protections. Unfortunately, courts have failed 
to interpret the Age Discrimination and Employment Act as a 
remedial civil rights statute, but, instead, narrowly interpret 
and erode its protections. Exhibit A is the Gross v. FBL 
Financial Services decision, which came out 10 years ago next 
month. Joining me here today is Mr. Jack Gross, the plaintiff 
in that case, which created the need to pass POWADA.
    Mr. Gross is now a happy retiree, who spends his time with 
his wife of 51 years and his grandchildren, but he still wants 
to stop his name from being associated with the pain and 
injustice inflicted on older workers by age discrimination. 
Those are his words.
    After working for more than 30 years and steadily rising 
within the ranks of the company, Jack's employer underwent a 
merger and reorganized. Many older workers were offered a 
buyout, and those who didn't take it, including Jack, were 
demoted and essentially replaced by younger workers. Jack, then 
54, went to court and the jury agreed that age discrimination 
had been one of the motives behind his demotion. He was awarded 
about $47,000 in lost compensation.
    But when his case was appealed to the Supreme Court, the 
Court ruled that the ADEA requires a much stricter showing of 
causation than other kinds of discrimination. It was no longer 
enough to prove that age was one of the motivating factors 
behind an employer's conduct. The Court held that older workers 
must prove that age was a decisive, but for cause for the 
employer's actions.
    The Gross decision has made it far more difficult for older 
workers to get their day in court and to prevail. Courts have 
used Gross to weaken other wage discrimination protections and 
the damage has not stopped with the ADEA. The Supreme Court and 
lower courts have extended the harmful reasoning of Gross to 
other civil rights laws. In 2013 the Supreme Court imposed the 
Gross standard on Title VII retaliation cases. While the 
Supreme Court has not yet ruled on the availability of the 
mixed motive framework under the American Disability Act or the 
Rehabilitation Act of 1973, several lower courts have extended 
the damage to disability discrimination.
    POWADA alone won't fix all the problems. Much more needs to 
be done. For instance, Representative Grothman introduced a 
bill last year that would protect more older workers from age 
discrimination by extending the AEDA's coverage to more 
employers. But POWADA would fix the enormous problem created by 
the Gross decision and its progeny, a legal standard that is 
stacked against workers and backtracks on the promise of the 
AEDA and other civil rights laws.
    POWADA does not expand civil rights, it is a limited 
straight forward restoration of the same standard that was in 
effect before 2009. The bill has long been bipartisan and was 
developed as a consensus between civil rights and business 
groups.
    Discrimination is discrimination, and POWADA would make 
Congress' intent clear, that no amount of unlawful 
discrimination in the workplace is acceptable. Congress should 
pass POWADA as soon as possible.
    Thank you again for inviting AARP to testify and I would be 
happy to answer any questions you may have.
    [The statement of Ms. McCann follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman SCOTT. Thank you.
    Mr. Roos.

TESTIMONY SHAYNE ROOS, SENIOR VICE PRESIDENT, ACHIEVA SUPPORT, 
                            ACHIEVA

    Mr. ROOS. Good morning and thank you to Chairman Scott and 
Ranking Member Foxx for allowing me this opportunity to come 
before you today in support of the Transformation to 
Competitive Integrated Employment Act.
    This morning my testimony will include the story of my 
organization's transformation away from the use of a 14(c) and 
the successes realized as a result of that transformation.
    My name is Shane Roos. I am the Senior Vice President of 
ACHIEVA Support, promoting employment opportunities for people 
with disabilities is a personal passion, has been a primary 
focus of my career. I view employment as being the centerpiece 
of a community life.
    ACHIEVA was founded in 1951 by a group of family members 
who all desired the same thing, to ensure their children with 
disabilities had the same chances in life that all children 
should be given. Their commitment helped to establish a 
nationwide movement that changed the long history of isolation 
and segregation of both children and adults with disabilities.
    For several decades ACHIEVA has been providing employment 
supports for people with disabilities and we have always taken 
a diversified approach to achieve competitive integrated 
employment outcomes.
    Until recently, however, we had relied heavily on sheltered 
workshops and the use of a 14(c) certificate. In 2014 we began 
to examine our scope of employment services relative to the 
mission, vision, and core values of our organization. We 
determined that they did not align. In a community where 
disability should be a distinction that makes no difference, 
people should not be earning less than minimum wage with little 
or no access to the greater community.
    So in late 2015 our boards of directors unanimously adopted 
a resolution whereas we would divest ourselves of all facility 
based services that segregate people from the richness of local 
community life. While it took time, planning, investment, and a 
reallocation of resources, all five of ACHIEVA's workshops were 
shuttered within 3 years of the adoption of the resolution. 
Even more importantly, both of our 14(c) certificates were 
phased out within 2 years. And despite the rhetoric that 
implies when workshops close there are no other alternatives, 
the successes of those people once languishing in our workshops 
tell a different story.
    Today just over 100 people formerly in one of our workshops 
and earning a sub-minimum wage are now enjoying the richness 
and benefit of competitive integrated employment. Those jobs 
span across 53 unique employers with an average starting rate 
of $8.25 per hour. An additional 65 people are employed by one 
of ACHIEVA's 3 business. The average hourly rate earned in 
ACHIEVA's business operations is $8.93 an hour. These same 
people were once earning an average wage of $1.90 per hour 
under a 14(c) certificate. Current earnings represent a 370 
percent increase in hourly wages.
    Transitioning away from a 14(c) is not without its 
challenges. Many of the people currently in workshops 
transitioned into them directly from high school and they have 
remained there ever since. The workshops and the associated 
meager earnings are all they and their families have ever known 
because people were not truly being prepared for a transition 
to competitive integrated employment.
    Passage of the Transformation to Competitive Employment Act 
in and of itself sets a new standard. It answers the question 
as to whether or not people with disabilities should be paid 
less than minimum wage. That answer is no. The Act sends a 
message that all people with disabilities who choose to be 
employed have the same rights and opportunities as people 
without disabilities. It also addresses those challenges by 
first and foremost offering technical assistance to current 
14(c) holders. They will need to understand and buy into why it 
should be done and develop a competency as to how it can be 
done in order to successfully transition away from the use of a 
14(c).
    Transformation of this kind does not occur overnight. The 
Act allows ample time to create and implement an exit strategy. 
Technical assistance and financial supports provided by the act 
should be used at the onset to develop a vision of how things 
will look 6 years down the road, establish realistic deadlines 
for implementation, and design a comprehensive communication 
plan. Having those three components in place prior to execution 
minimizes the fear of the unknown for your internal and 
external stakeholders and holds organizations accountable in 
terms of meeting your strategic benchmarks.
    I support the Transformation and Competitive Employment 
Act, and ACHIEVA is a proud member of ANCOR, the American 
Network of Community Options and Resources, who support the 
Act.
    While there may have been a place for such a law when it 
was created in 1938, this discriminatory practice that 
undervalues the abilities and contributions of a person with a 
disability is no longer acceptable.
    And while I will always stand tall behind ACHIEVA's 
decision to discontinue the use of our 14(c) because we felt 
that it was simply the right thing to do, my experience over 
the past few years has shown me that all too many current 
certificate holders will not take that approach under their own 
volition. They instead will lean on falsehoods, such as a 
person's lack of options or eliminating one's choice to defend 
a model of sheltered employment and sub-minimum wage. And it is 
for that very reason that the adoption of the Transformation to 
Competitive Employment Act is so inherent to promoting 
competitive integrated employment opportunities for all.
    Thank you.
    [The statement of Mr. Roos follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman SCOTT. Thank you.
    Mr. Pianko.

TESTIMONY DANIEL PIANKO, MANAGING DIRECTOR, UNIVERSITY VENTURES

    Mr. PIANKO. Thank you, Chairman Scott, Ranking Member Foxx, 
for the opportunity to testify.
    My name is Daniel Pianko and I am Co-Founder and Managing 
Director of University Ventures. Our portfolio company has 
reduced barriers to employment and make higher education more 
affordable by pioneering new approaches to learning and helping 
employers think differently about how and where they discover 
talent.
    America is facing an unprecedented mismatch in the supply 
of and demand for talent. Even in this robust economy, college 
degrees are not delivering the skills required to get a good 
first job. We are spending hundreds of billions of dollars to 
empower Americans through education, to get one of the 7 
million open jobs that are out there. But higher education just 
isn't working for too many. It used to be that the American 
companies would hire recent high school and college graduates 
and then prepare them for specific jobs. These programs have 
virtually disappeared.
    Today, employers expect new hires to already have specific 
skills. Gallup and Inside Higher Ed found--and this is probably 
the most important statistic--that while 96 percent of provosts 
believe that they are academically preparing students for the 
world of work, only 14 percent of hiring managers believe that 
colleges are successfully preparing their graduates for the 
workforce. The result is over 40 percent of college graduates 
end up in jobs that do not require a bachelor's degree, and 2/3 
of those underemployed graduates will still be underemployed 
five years later.
    The employability gap is best understood in micro terms. 
Salesforce, for example, is a customer relationship management 
software platform. Over 300,000 jobs are created each year for 
individuals with Salesforce skills, yet virtually no colleges 
or workforce programs teach students the fundamentals of 
Salesforce.
    In addition to hard skills, we have a soft skills gap. 
Employers use soft skills as a prerequisite for employment. 
Today's students though have less exposure to paid work as 
adolescents, which means that a generation of new hires with 
less ability to communicate effectively, adapt to the 
workplace, or even know that they should show up on time. It is 
imperative that we do away with the false dichotomy that 
teaching job specific skills would mean a shift away from soft 
skills. Technical skills and soft skills can and must be taught 
together.
    Today I will lay out four solutions that should receive 
bipartisan support.
    First, solutions for higher education are being developed 
in the marketplace. Congress should encourage employer pay 
models of education by allowing companies that prepare and 
subsequently hire workers to be eligible for Federal funding 
from programs like Pell and Workforce Innovation Act funds.
    For example, Talent Path works with colleges to create a 
direct pathway for students to employment with free software 
education provided. Employers are effectively ending in-house 
spending on entry level hiring and instead paying for full 
stack last mile training programs that recruit, teach, and 
place students in good first jobs. We call these employer pay 
models and believe they will grow dramatically to fill the gap 
between education and employment.
    Second, existing funding mechanisms, like Federal work 
study, should be reformed to better support the connection 
between education and employment. The Federal Government is 
spending almost $1 billion annually in work study to preference 
on campus jobs that do not have a direct connection to work. 
Federal work study should incent off campus work that has a 
potential to lead to full-time high wage employment, or provide 
funds for discipline aligned apprenticeship programs.
    TekTonic, which operates the first Department of Labor-
approved apprenticeship program in software development, 
creates an outsourced apprenticeship model that is partially 
funded by WIOA dollars.
    Third, Congress should use the Higher Education Act as a 
tool to encourage more institutions to adopt work experience 
into academic programs through the work college designations. 
Work colleges, such as Paul Quinn and Berea, have proven that 
work, when integrated into the curriculum, radically reduces 
the cost of education while improving job outcomes.
    Finally, Congress should look to dramatically reform the 
Federal financial aid system, particularly when it comes to 
graduate education. The Grad PLUS loan program has shifted from 
access to undergraduate education to supporting graduates who 
seek to transition into professional fields.
    The pursuit of graduate education remains vital to talent 
development in many high need areas, but Congress should have 
some assurances that the Federal investment in Grad PLUS is 
tied to employment in career aligned fields.
    Congress has spent decades providing access to 
postsecondary education, yet the chasm between employers and 
educators creates huge barriers to entry to employment. Today, 
it is more important than ever to ensure that completion of a 
credential connects a graduate to employment and future 
success.
    Thank you for your time, and I look forward to answering 
questions.
    [The statement of Mr. Pianko follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman SCOTT. Thank you.
    Ms. Bird.

 TESTIMONY KISHA BIRD, M.S.S./M.S.L.P., DIRECTOR, YOUTH POLICY 
            CENTER FOR LAW AND SOCIAL POLICY (CLASP)

    Ms. BIRD. Chairman Scott, Ranking Member Foxx, and Members 
of the Committee, thank you so much for the opportunity to 
testify on barriers to employment.
    I am Kisha Bird, the Director of Youth Policy at the Center 
for Law and Social Policy, or CLASP, an anti-poverty 
organization. We work nationally and with states and 
communities around the country.
    Today you have asked me to address barriers and solutions 
that affect young people, including opportunity youth, young 
people who are ages 16-24, are not in school and work, and 
people impacted by the criminal justice system. In my written 
testimony I also include other workers who face barriers.
    Today I want to make four key points.
    First, the economy is leaving out too many people. Despite 
extremely low unemployment rates, millions of would be workers 
are locked out of the labor market and millions more are stuck 
in low wage jobs that cannot support a family. For example, 
approximately 4.5 million young people are opportunity youth. 
And people impacted by the criminal justice system are 
unemployed at a rate of 27 percent. For black men and women who 
have returned from incarceration, that figure jumps to 35.2 
percent and 43.6 percent, respectively.
    Second, the barriers to employment that face youth and 
adults locked out of opportunity are structural. They arise 
from systems and policies and not individual choices. So we 
know the key structural systemic factors include mass 
incarceration, racism and discrimination, segregation and 
isolation from inner cities to rural communities, we know 
policy and investment failures in the K-12, adult, and 
postsecondary education systems and major gaps in access to 
work supports, like childcare.
    Third, the Federal Government is critical to addressing 
barriers to employment in partnership with states, communities, 
and business. The Federal Government, and in particular this 
Committee, has a central role in dismantling barriers based on 
race, gender, geography, income, and ability.
    So Federal Education and Workforce Development funds are 
investments in equity. They are the funds that build the equity 
framework and infrastructure by focusing on effective 
interventions, like career pathways, and disparately impacted 
populations. But this crucial role has been weakened by the 
erosion of budget investments. For example, while 36 million 
adults need foundational skills, adult education at current 
levels only serve 1.4 million annually, so we have a tremendous 
gap in service.
    And, fourth, and finally, we know what works and we know 
where investments need to be made. So simply put, it is really 
time to act.
    So among the immediate steps that I would urge the Congress 
to consider, are lift budget caps to make critical investments 
in workforce development, adult education, postsecondary 
education, and critical work supports, like childcare. Invest 
in strategies for job creation and youth free connection, 
summer youth employment, for examples through the Opening Doors 
for Youth Act. Make improvements in the Workforce Innovations 
and Opportunity Act in tandem with the Higher Education Act, 
and directly address the consequences of incarceration. This 
could include ensuring background checks are accurate, such as 
the Chairman's Fairness and Accuracy in Criminal Background 
Checks Act, restoring Pell grants to individuals who are 
incarcerated, and investments in correctional education.
    In conclusion, I urge Congress to build on what we already 
know from research, state and local experience, and young 
people impact the communities themselves, directly address the 
structural barriers that I have mentioned here today, invest in 
equity and spreading innovation, for example, through 
infrastructure.
    I urge Congress to create a plan for universal access to 
education and employment for all young people and individuals 
impacted by the criminal justice system.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The statement of Ms. Bird follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman SCOTT. Thank you. I want to thank all of our 
witnesses for their testimony.
    We will begin now with questions from the Members and I 
will go last. So I first recognize the gentleman from Arizona, 
Mr. Grijalva.
    Mr. GRIJALVA. Thank you very much, Mr. Chairman, and thank 
you to the witnesses.
    Ms. McCann, in your experience as a litigator, explain how 
the change to the standard of proof in the Gross decision has 
adversely impacted age discrimination in employment claims. Is 
there evidence that AEDA claims are being rejected by the 
courts more often, since that Gross decision occurred, and the 
impact of that?
    Ms. MCCANN. Sure. Thank you.
    As I explained in my testimony, the Gross decision 
basically heightened the level of proof for an age 
discrimination victim as compared to other victims of 
discrimination. So it is no longer enough for an age 
discrimination victim to prove that age was a motivating factor 
in their employer's decision, but they also have to prove the 
hypothetical negative that had the employer not taken age into 
account, they would have done the same action or taken the same 
decision. So they are almost being required to prove a 
hypothetical negative.
    That is very difficult to prove and by proving that age was 
already a motivating factor, the age discrimination victim has 
already established a claim.
    It is hard to quantify the impact Gross has had on age 
discrimination claims. How do you quantify or take into account 
the cases that were never brought because an age discrimination 
victim, knowing how difficult it was already to prove 
discrimination, now knows that the burden has been raised. We 
have heard anecdotally from other plaintiff's attorneys that 
they are not going to take an age discrimination case knowing 
that they are going to be required to produce either more 
evidence or more compelling evidence to prove age 
discrimination than other forms of discrimination. It is one of 
the reasons AARP has its litigation program, because we have 
the resources to take on these cases.
    So a lot of victims just choose not to bring them.
    Mr. GRIJALVA. Thank you very much.
    Ms. Bird, just a general question. I think we have heard 
and will probably continually hear some more about the issues 
that we are dealing with, whether it is youth, issues of age 
discrimination, disabilities, discrimination in terms of 
whether it be pay or accessibility, that all this can be 
overcome by individual grit, you know. That the individual's 
initiative, the individual's success, that it is up to that 
individual regardless to make it out. And that for this reason 
there should be no government involvement, let nature take its 
course. Kind of an upside down Darwin theory in my mind, but, 
anyway.
    So your response to that, since you mentioned systemic 
reasons, and why there is a role for government. If you could 
expand on that one point that you made.
    Ms. BIRD. Yes, thank you for that question.
    As I mentioned, the barriers to employment faced by a range 
of folks are structural. The research is pretty clear that 
there are discriminatory hiring practices based on age, whether 
you are a younger worker or an older worker, based on race. We 
haven't improved discrimination--
    Mr. GRIJALVA. If that barrier exists--if I may, Ms. Bird--
how can the individual, through individual grit, get over that 
barrier?
    Ms. BIRD. Yeah, so I believe that there is a Federal role 
to play and part of that Federal role is ensuring that there 
are fair hiring practices; Federal Government working in 
partnership with employers to dismantle some of those barriers. 
For example, for individuals who are incarcerated, ensuring 
that there are Ban the Box efforts that don't unfairly 
discriminate from those who have had backgrounds and impacted 
by the criminal justice system.
    So that is just one example of how the Federal Government 
can play a role, because these issues are structural and we 
can't overcome them with individual case by case efforts.
    Mr. GRIJALVA. Thank you.
    Mr. Roos, in the transition process that you talked about 
and that ACHIEVA went through, and others, you state your 
decision was not well received. Who objected and why?
    Mr. ROOS. Primarily it was families of the people who had 
been in the workshops for all of those years that were really 
our biggest opponents. They didn't see an alternative for their 
sons and daughters, brothers and sisters, and I attribute that 
to what they were used to. I talked about it in my testimony, 
they had gone right from high school right into a workshop. It 
was that standard Monday through Friday, 8:00-4:00 o'clock. 
They knew their son or daughter, their loved one, was well 
taken care of during that time. Employment really wasn't the 
focus, it was time spent somewhere that they knew that they 
were adequately supported, as opposed to looking to achieve 
employment outcomes.
    Mr. GRIJALVA. I yield back, Mr. Chairman. Thank you.
    Chairman SCOTT. The gentleman from Tennessee, Dr. Roe.
    Mr. ROE. Thank you, Mr. Chairman, and thank all of you. I 
agree with many things that all of you said. And, Mr. Gross, I 
knew when I was getting older when I kept getting these 
unsolicited emails for the walk-in tub. That is how I knew I 
was aging.
    In our State of Tennessee--and I want to go over some 
things that we are doing there and just get your comments on 
it, and also on the issue of incarceration. I had a local 
roundtable with my law enforcement people, and 80 percent of 
the jails are people there with drug crimes. And we can't 
arrest our way out of this problem. And these are people then 
that are tainted. We need them in the workforce.
    And I think the President did the First Step Act. It was a 
bipartisan bill that I totally agreed with. And as a physician 
that has watched this occur over the years, this drug epidemic, 
we have to do something about it because it is affecting the 
life expectancy in this country, it is also affecting our 
workforce. So that is one thing said.
    In Tennessee we recognized--we had a skills gap and we 
recognized that in our State. And we started a Drive to 55, 
where 55 percent of our people in our state had a definable 
skill or certificate after high school. And the way we did this 
was we made community college free. Anybody in our state who 
graduates from high school now can go to community college or 
technical school. And these are some numbers I want you all to 
remember. I went to my local TCAT and talked to the president 
the other day, and 77 percent of students graduate on time in a 
career path--77 percent, much higher than college--98 percent 
are placed in a job immediately after school, 100 percent 
graduate with 0 debt, where the average debt of a college 
student, who may not be able to get a job, is around $30,000 in 
our State. If it is a private school obviously it is much 
higher. So we have recognized this skills gap.
    And I went out hiking this weekend with a friend of mine 
who can hire five mechanics today. I could go on and on about 
the unfilled and the soft skills. That is why, Ms. Bird, it is 
so important to have youth working to learn those soft skills. 
Show up at 8:00 o'clock, work hard and be there until 5:00 
o'clock. And I think our State is doing a decent job. We have 
14,000 people in the Tennessee Reconnect. If you are a senior 
and you lose your job, you also can go back to a school and be 
educated at no cost. Because we believe that investment in 
education in the State of Tennessee is going to pay huge 
dividends for our State.
    I guess, Mr. Pianko, a couple of questions that you have. 
What are some of the biggest challenges that states face in 
helping students earn degree, and what are some of the biggest 
opportunities we ought to be focusing on?
    Mr. PIANKO. Well, first of all, I want to commend the 
government of the State of Tennessee. What you did in 
Tennessee--and I didn't actually know all the statistics you 
just mentioned, but when Governor Haslam started with the free 
college program I think he made a big splash. And, honestly, I 
think he really galvanized a lot of people around the concept 
of making college tuition free up to some level.
    At the state level--again, I think Tennessee is a really 
wonderful example of sort of creating the ecosystem around 
connecting education to employment. You mentioned sort of the 
employment councils that you guys created and then made sure 
that the community colleges and the regular colleges and 
universities all integrated with that. And the results speak 
for themselves. So I think Tennessee is an excellent example.
    Mr. ROE. Let me give you another example we are doing. We 
have a bus company from Belgium that is moving in, and they are 
starting to shovel dirt I think this spring. They are paying 
120 students $16 an hour to go to school to learn to be 
welders, to have a guaranteed job at north of $22 an hour to 
start out with, plus their benefits. So we are already seeing 
huge benefits from that.
    What are the--and anyone can answer this question--what are 
some of the best innovations that you all have encountered when 
it comes to using industry expertise to guide the development 
of career preparatory programs? I will throw that open to 
anybody.
    Ms. BIRD. Yeah, that is a really good question. And I will 
jump in.
    I think one of the things that we are seeing is really the 
notion of career pathways, which is baked into the Workforce 
Innovation and Opportunity Act. It requires a number of 
different systems working together, so with business and 
industry, with the workforce development board, which has those 
employer partnerships, which has the labor market information, 
and with higher education institutions, like community college, 
like technical schools. So there is not one entity that can do 
it alone, but at the state and local level support it, again by 
the Federal role and that framework. It allows for business and 
industry to be an effective partner in creating career pathways 
and creating the opportunities post education and training for 
employment.
    Mr. ROE. Thank you.
    And Mr. Roos, I want to thank you for advocating for your 
employees and for the group that you represent. I respect and 
admire you for that.
    And I yield back.
    Chairman SCOTT. Thank you.
    The gentleman from the Northern Mariana Islands, Mr. 
Sablan.
    Mr. SABLAN. Yeah, thank you very much, Mr. Chairman, for 
holding this hearing, and welcome to all the witnesses. Thank 
you for being here with us.
    Ms. Bird, I know you are here appearing in your position as 
Director of the Youth Policy, but I am also taken back in your 
oral presentation with the passion you have in supporting your 
testimony. So I want to--I have a few questions for you.
    I want to know about funding levels. When we talk about 
money here, sometimes it gets into higher level of discussions. 
But your testimony notes that current funding levels are 
insufficient to provide the employment and training services 
that individuals with barriers to employment need to move out 
of poverty and into good jobs. Current Federal youth employment 
and training programs serve approximately 339,000 opportunity 
youth, reaching just about 25 percent of the young people in 
need of employment, education, and service pathways.
    So let me ask, if Congress were to say double the funding 
for youth employment and training programs, what do you see the 
potential in the participation rate?
    Ms. BIRD. Thank you for that question. It is really 
critical.
    So first thing is that we have seen funding levels 
dramatically decline for employment and training programs for 
young people over the last 40 years, and in particular since 
2000. And so we are not at the funding levels where we used to 
be. So we know that at some point in our history this country 
did think these were critical investments, early work 
experience and those skills.
    So as it relates to opportunity youth in particular, we do 
need to increase the funding. We have 4.5 million young people 
who are out of school and out of work, and yet we are only 
serving a fraction of those young people through programs like 
Job Corps, Youthbuild, the Workforce Innovation and Opportunity 
Act programs. And so we know that we should scale up those 
programs and serve them. Now, we would increase participation, 
but it is not just a formula that if you double the funding you 
double the amount of young people engaged, because we know we 
need to think about the supportive services, work supports, as 
well as the different types of programs that young people are 
engaged in.
    Mr. SABLAN. But you could in a sense double it and maybe--
even more than double right, if it is done right?
    Ms. BIRD. Yeah. Well, what we have been calling for through 
the Reconnecting Youth campaign is that we need annually to 
engage at least 1 million more young people in these 
opportunities. And so that includes a range of things like 
summer youth employment, like work based learning, and all 
those other opportunities.
    Mr. SABLAN. Which leads me to my next question. Really, I 
would like to know your opinion about which Federal programs 
are most effective in assisting opportunity youth, for example. 
In your testimony you described this group as the--like you 
just said, 4.5 million young people ages 16-24 who are not 
participating in school or work. So can you give me your 
assessment on which Federal programs--some we may have in my 
district, the Northern Marianas, and some way may not--have 
been most effective in addressing this cohort? And in 
particular, can you speak to the effectiveness of Job Corps 
centers, which we do not have in my district, regrettably.
    Ms. BIRD. Yes. So I will try to get to as much of that as 
possible.
    Mr. SABLAN. Thank you.
    Ms. BIRD. So the issues that young people, especially 
opportunity youth face, are not one size fits all issues. And 
so there is no one answer, like this is the most effective 
program.
    What we know from research and state and local experience 
and implementation, is that there are effective strategies, 
like work base learning, that allows young people to earn and 
learn, like integrated education training which allows young 
people to gain foundational skills, build adult education, and 
create pathways to postsecondary opportunities and to 
employment.
    So there are the strategies that are baked in. And what 
WIOA does is actually include those provisions to incentive 
state and local workforce boards to have community based 
partners, to engage young people in those opportunities.
    Mr. SABLAN. Yeah, thank you. My time is up.
    Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you.
    The gentleman from Michigan, Mr. Walberg.
    Mr. WALBERG. Thank you, Mr. Chairman, and thanks to the 
panel for being here. It is an important topic, an exciting 
topic that we are engaging in today.
    When I meet employers in my district, they often talk about 
the disconnect between the skills being taught in colleges and 
universities and the skills that employers are seeking to meet 
their workforce needs. Sometimes they don't even come close to 
what actually is needed in the workplace, as you have indicated 
in your testimony.
    I have a number of excellent colleges in and around my 
district that are attempting to develop courses and programs to 
satisfy this workforce demand. Mr. Chairman, you might be 
interested, that in one college, Adrian College, in my district 
has developed a relationship with Google. And I remember when 
we visited Google last term together and heard of the massive 
need that they had in people trained in the computer skills, 
IT, coding, all of the rest, but also needed those soft skills, 
critical thinking skills, et cetera. They weren't finding them. 
They were finding people that had courses, but those courses 
weren't meeting the needs of the real world. And so it has been 
interesting to watch Adrian College develop this consortium 
now, starting with Google, and now ratcheting up and out with 
other colleges as well that have niche fields that they can 
share in unique and creative educational arrangements so that 
individual students can have opportunity to have those needs 
met, the soft skills as well as the technical skills that the 
businesses, whether it is in marketing or sales or logistics or 
insurance, et cetera--when they get into the field themselves 
they are prepared and ready. And they don't have to have the 
remedial training that Google would have to give most of what 
they are receiving from universities today. And so partnerships 
like this seem to be something we ought to be working toward.
    Mr. Pianko, in your experience, have you seen other 
colleges start to amend their curricula to better align with 
the workforce demands? And, if so, is there a common thread or 
model that you think could be broadly emulated?
    Mr. PIANKO. Yes. So this is--I get asked this question a 
lot, which is like how do we do it better for a college or 
university, how do we get better connected to employment. And I 
think we have to realize what people do well and what people 
may or may not need help with. And colleges and universities 
were really not set up to do workforce development and job 
training.
    The jobs that you are talking about at Google, the 
technologies that they are describing probably change over once 
every 3-6-9-12 months.
    Mr. WALBERG. Right.
    Mr. PIANKO. And colleges tend to take--I sat on the 
curriculum committee of my undergraduate institution and it 
took us two years to update a curriculum, and usually that was 
adding a new book or something. When programming languages, 
especially in the technology field, are changing as rapidly as 
they are, it becomes very difficult for colleges to do what you 
are describing.
    And so I think--
    Mr. WALBERG. Under the old model?
    Mr. PIANKO. Under the old model.
    Mr. WALBERG. And I guess what we are saying is, that model 
needs to change?
    Mr. PIANKO. Right. So the question is what do you do if you 
are a college, right.
    Mr. WALBERG. You change.
    Mr. PIANKO. You change.
    Mr. WALBERG. Or you go away.
    Mr. PIANKO. Or you focus on what you are really good at. 
And then I think there are going to be a new brand of 
companies, nonprofits, community-based organizations that 
spring up that actually provide the connective tissue between 
educational institutions and employers.
    And it is really hard for the one college in your district 
that probably graduates a few hundred students every year to 
have that relationship with Google. That is unique. But if they 
could tie into some sort of broader national framework of 
either a company or a nonprofit that actually provides a lot of 
that training that Google needs, that last mile training that 
Google needs--and Google will pay for it.
    Mr. WALBERG. And Google is paying for it.
    Mr. PIANKO. Google is paying for it.
    Mr. WALBERG. And 21 other businesses are now starting to 
work in this consortium to do the same thing.
    Mr. PIANKO. Exactly. And what you are describing is exactly 
what the future is. These intermediaries are going to spring 
up. And Congress should really help develop these 
intermediaries that can connect, you know, this chasm between 
education and employment.
    So what you are describing is exactly the innovation we 
would be excited to see grow.
    Mr. WALBERG. And with push like you are talking about, in 
the sense forcing through--saying it is not going to work the 
old way.
    Mr. PIANKO. Right.
    Mr. WALBERG. Colleges, if they are going to survive. And 
small colleges like Adrian are going out of business every day.
    Mr. PIANKO. Those are the ones that are struggling the 
hardest. I mean if you are a small college, how do you keep up 
to date? And so, you know, I think as you think about well how 
do you encourage innovation, you should actually think about 
putting workforce dollars on the table that could facilitate 
that interaction with--Google is a big example, they got a ton 
of money. But there plenty of other companies in your district, 
Congressman Scott's district, that would probably love some 
money to help them build an apprenticeship program for the 
middle skill areas that you described.
    Mr. WALBERG. Thank you. Exciting opportunity.
    I yield back.
    Chairman SCOTT. Thank you.
    The gentlelady from Florida, Ms. Wilson.
    Ms. WILSON. Thank you, Chairman Scott, for holding this 
hearing on this critical issue of eliminating barriers to 
employment. I also thank the witnesses for sharing their 
testimony with us this morning.
    The importance of today's hearing cannot be overstated. 
Even though the economy has statistically reached full 
employment, there are still tens of thousands of people who 
have been left out of the job market. There are numerous ways 
to increase employment and break down the barriers that too 
many Americans face when trying to enter or re-enter the 
workforce.
    Two prime examples of Federal programs that contribute to 
breaking down these barriers are the Workforce Innovation and 
Opportunity Act and career and technical education programs. 
Increasing funding for both of these important programs would 
be a positive step forward.
    We also need to remove the barriers to employment for those 
with arrest records and other criminal backgrounds. One in 
three Americans has a criminal record, and they not only face 
educational, social, and other barriers to employment, but 
oftentimes outright discrimination. Low rates of high school 
retention among black male students directly relate to high 
rates of joblessness and incarceration. More than 2/3 of black 
male dropouts end up serving time in State or Federal prison, 
making their path into the workforce much more difficult.
    One of my life's missions has been to put up a permanent 
roadblock on the destructive and demoralizing path that has 
entrapped too many boys and young men of color and other at 
risk youth. In my experience as a teacher and a principal has 
taught me that very real benefits of reaching children as early 
as possible and how, with the necessary encouragement and 
support and resources, their lives can be transformed so that 
they will make positive choices for themselves and their 
futures.
    I have a few questions for Ms. Bird.
    Ms. Bird, how important is it to bring together community 
institutions, such as schools, workforce development providers, 
the juvenile justice and child welfare agencies, to reach 
opportunity youth?
    Ms. BIRD. It is really important. What we know is that 
because opportunity youth have faced a number of different 
barriers, whether it be as a result of living in high poverty 
communities where there is lack of investment, systemic 
failures in their k-12 system that have pushed them out of 
school. You've mentioned boys and men of color. We know they 
are more likely to be referred to law enforcement and have 
higher suspension and expulsion rates. So, again, these issues 
are structural and systemic.
    So in order to really capture opportunity youth and to meet 
them where they are, we need recruitment efforts, and that 
involves cross systems collaboration. We know that young people 
in the child welfare system, for example, are more likely to 
have employment and postsecondary challenges.
    So the workforce investment system really is a convening 
entity that can braid and blend and support cross systems 
partnership to create the best interventions and the best 
opportunities for opportunity youth where they are.
    Ms. WILSON. Your testimony addressed the untapped potential 
of opportunity youth. At a time when job openings exceed the 
number of applicants we are seeing more and more employers 
recognizing the potential of these young people and making 
concerted efforts to engage these workers. We also know the 
barriers to employment do not go away once a young person is 
hired.
    How does our current workforce development system help 
ready young workers for employment opportunities and help 
employers connect with these young workers? And what services 
are in place for support?
    Ms. BIRD. So I will answer in a number of different ways 
because, again, what we find is that what workforce development 
boards in partnership with their community partners are really 
thinking critically about the needs of employers, as well as 
the needs of young people in their communities.
    So, one, they are thinking about coaching and advocates 
that help young people to navigate not only the types of career 
pathways that they need, but also the social supports and the 
supportive services, again, that are baked into WIOA, to help 
them, for example, if they are a young parent. What do they 
need in terms of support there, in terms of childcare.
    The other thing that we think is really important, and 
we've seen this in some of the research with summer youth 
employment, with employers is really how do you also train the 
workplace to be prepared and to be able to supervise and to 
coach young people themselves. So all the training and support 
doesn't just happen for young people, but the employer and 
private sector community.
    I would be happy to follow up with you, because we have a 
number of examples from around the country and we do think that 
the Federal investment can support that in places where it is 
not happening.
    Ms. WILSON. Thank you very much.
    Chairman SCOTT. The gentleman from Georgia, Mr. Allen.
    Mr. ALLEN. Thank you, Mr. Chairman, and thank you all for 
being here today.
    We have quite a dilemma in the country, and it was 
basically created by this tremendous economic opportunity we 
have experienced under the Trump Administration and Republican-
led Congress. Our economy is doing better than ever, best in 
the world; 7 million jobs open right now.
    I meet college graduates with college debt every day that 
cannot find a job. I talk to people in my district, and 
everybody needs workers to grow their business. They can grow 
their business if they had a skilled workforce. We know that 
the number one thing that a business looks at when they want to 
locate in a community, is skilled workforce. This government is 
spending a lot of money to try to look at various ways to deal 
with this.
    I will tell you the biggest problem in my district as far 
as workers is passing a drug test. I mean it is alarming. In 
fact, law enforcement tells me the biggest problem they have--
80 percent of their problem surrounds either the sale, 
distribution, or use of drugs. And so we know that there are 
reasons--I have employers that want to encourage their folks to 
work overtime, but they won't work overtime because if they 
make a certain amount of money they lose their government 
benefits. In fact, they do not want to move up in the workforce 
because they will lose their government benefits. There are 
people who won't go to work because they will lose their 
government benefits--maybe 20 million work capable people out 
there.
    I think the problem is with the Federal government.
    As far as your research, and you have talked a lot about 
innovation and education programs, what are you doing to solve 
some of these issues, these real issues that folks are having 
out there?
    Mr. PIANKO. Yeah, look, I think the biggest problem is what 
you alluded to, which is you graduated from college and you 
don't actually know--you do not have the right skills to get a 
job. And what then ends up happening is you are under employed 
and you become the barista at Starbucks, or whatever the image 
that connotes. And you are lost. And if you are a millennial 
right now, you are on average 40 percent less wealthy than the 
generation before you was at the same time in their career. And 
it has led to a huge amount of disaffection and, frankly, a 
significant decrease in the labor participation rate. And you 
mentioned that we have this amazing economy going right now, 
and we actually have employers who are willing to pay to bring 
people back into the economy.
    And so what I strongly recommend is we figure out a way to 
leverage existing dollars because there are--we spend a lot of 
dollars right now between WIOA, Pell, all the Title IV spending 
that we make--that we can create more incentives for colleges 
to--for businesses, to bring back people who are underemployed, 
who have gone down the path that you described, because the 
world isn't working for them. They went to college, they took 
out all this debt, and they are not getting the jobs that they 
want. Or they went to college and they weren't successful at 
college. We didn't mention this, but 50 percent of people--more 
than 50 percent of people who try college, it doesn't work for 
them. And so our only response to them is go back to college to 
get a job. And we need other alternatives, we need other 
alternative pathways to employment. And that is what I would 
strongly recommend this body--
    Mr. ALLEN. We have a financial aid system in the country, 
and you touched on this a little bit, but what are some steps 
you suggest that we take to address the real problem?
    Mr. PIANKO. So right now the entire incentive structure in 
the financial aid system is--and I regret to use this term here 
in this forum, but it is butts in seats. And our entire 
economic model is, if someone shows up to class on a certain 
day, then there is enough Pell or Title IV money for that 
person to get paid to sit there or for the school to get paid 
to sit there. We need to create better models that encourage 
schools to actually have output measure, whether that is 
actually linking the Title IV monies that they are receiving to 
eventual outcomes or creating other, you know, financial 
measures that incent schools to create better outcomes for 
their students.
    Mr. ALLEN. Great. Thank you, sir.
    And I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you.
    The gentlelady from Oregon, Ms. Bonamici.
    Ms. BONAMICI. Thank you, Mr. Chairman, and Ranking Member. 
Thank you to our witnesses and also to Mr. Gross for being here 
today.
    You know, despite our Nation's low unemployment rate, the 
economy is not working for everyone. There are systemic forces 
in our labor market that are creating barriers. Those include 
wage discrimination, lack of paid family leave, unpredictable 
schedules, inaccessible childcare, and, of course 
discrimination.
    My home State of Oregon has taken some tangible steps to 
address some of these barriers. The state legislature raised 
the minimum wage, we have long prohibited employers from paying 
tipped workers a sub-minimum wage, and in 2015 the legislature 
passed a Ban the Box bill to prohibit employers from inquiring 
about criminal convictions before the interview stage of 
hiring.
    Also I want to talk about workforce development programs 
that are helping more people, but I want to note that--you 
know, I mention my State. An equitable workforce requires 
Congressional action. So workforce development programs--Ms. 
Bird, I really appreciated your testimony. I want to talk a 
little bit more about the Workforce Innovation and Opportunity 
Act, or WIOA, which we passed with bipartisan support in 2014. 
We know that it is really outlining the vision for a workforce 
system that is responding to the needs of employers, but also 
getting people into jobs.
    So how do the programs provide the support services to help 
individuals facing barriers, but also what role have local 
workforce development boards played in supporting the state and 
local strategies? How should this Committee address these 
successes and challenges as we look at reauthorizing WIOA?
    Ms. BIRD. Yeah, so I will start with the role of local 
workforce boards. As we know through WIOA, the Federal role is 
really to kind of set the stage of what does research show 
about interventions that work to lift up the innovation that 
has been happening in local communities. And now what we have 
found is that local workforce boards again are the convening 
entity and really connecting. Because of the unified plan that 
was baked into the law as an option, we have seen then that 
more and more local workforce boards are partnering with their 
health and human services agencies, thinking about behavioral 
health. That is a really huge challenge for individuals who 
have been formerly incarcerated or young people, and others.
    Ms. BONAMICI. Absolutely.
    Ms. BIRD. We have also seen that local workforce boards are 
using their research strategies to go deeper with individuals 
to barriers to employment. And that is at the local level and 
the state level.
    And so I have couple of examples in my written testimony 
about how California has advanced that, because of the 
definition of individuals with barriers to employment, as well 
as Washington State. And I am not sure they would have done it 
otherwise.
    Ms. BONAMICI. And I don't want to cut you off, but--
    Ms. BIRD. Oh, I am sorry.
    Ms. BONAMICI.--I want to get another question.
    Ms. BIRD. I am sorry.
    Ms. BONAMICI. Thank you very much.
    Ms. McCann, Oregon's population is one of the most rapidly 
aging in the country. I have heard from workers who tell me 
they have been dismissed or denied employment because of their 
age. And for at least the last decade there is a sort of common 
understanding that it is really hard to prove an age 
discrimination case. Age discrimination is wrong and employers 
should not be allowed to violate the rights of older workers 
who are striving to provide for themselves.
    So I joined Chairman Scott in introducing the Protecting 
Older Workers Against Discrimination Act. I am glad we are 
focusing on that today.
    So you talked in your testimony about the importance of 
providing the same sort of Title VII protection to older 
workers that other populations have under the Civil Rights Act. 
So I wanted to follow up on Mr. Grijalva's question, how has 
the Gross decision and the subsequent cases applying it, 
affected the EEOC's ability to respond to age discrimination? 
And also--I am going to try to get these all in at once so you 
can use the time to respond--how have these decisions affected 
the anti-retaliation claims under Title VII, and how would the 
Protecting Older Workers Against Discrimination Act help 
workers bringing these claims?
    Ms. MCCANN. Thank you for all your questions.
    To start with your comment about the EEOC. I think that the 
Gross decision affects the EEOC in much the same way in which 
it affects private plaintiffs, that the EEOC also faces that--
when bringing an age discrimination case, faces that same 
heightened burden of proof.
    Ms. BONAMICI. It was already hard, now it is--
    Ms. MCCANN. It is already very, very hard. And so the EEOC 
is hampered as well.
    As far as your question about the anti-retaliation 
provisions of Title VII, unfortunately Gross has been applied 
to Title VII's retaliation provision. And the problem is 
historically when statutes have the same purpose and identical 
language, courts have interpreted those statutes consistently. 
But Gross changed all that and said that unless Congress, you 
know, thought far into the future and thought of every possible 
other statute that might be affected and amended them as well, 
that the amendment they are making to the particular statute--
    Ms. BONAMICI. I am running out of time. How could the 
legislation help workers?
    Ms. MCCANN. Because it sends a clear message that 
discrimination is discrimination, that age discrimination is 
not a second class civil right and you do not face a higher 
burden of proof than other discrimination victims.
    Ms. BONAMICI. Thank you. And now I am out of time. I yield 
back.
    Thank you, Mr. Chairman.
    Chairman SCOTT. Thank you.
    The gentleman from Wisconsin, Mr. Grothman.
    Mr. GROTHMAN. Yeah. I would like to thank you for this 
hearing. I wish I had five minutes for each one of the four of 
them, but I have got to pick. And I, as the Chairman knows, 
have a special interest in Dr. Roos' area of expertise. I am a 
little concerned about some of the things he said, but you say 
it one time that over 500 people with special needs working for 
you and things have shifted. You still have 65 working for you 
and 100 in other places and other people are still looking.
    I have a lot of people who are very happy working in the 
sheltered workshops in my area and they are very concerned. So 
I would like to know if we follow through on what the bill you 
support says, what becomes of these folks? I am very concerned 
that in your testimony you say that all too many current 
certificate holders will not take that approach under their own 
volition. So, in other words, you believe that people with 
special needs have to be forced somewhere where they wouldn't 
actually want to go, which I find kind of discriminatory and 
offensive.
    But I would like to know of the 500 people you used to have 
working for you, when you decided to kind of shut down your 
work floor, where are they all? I guess you have got 65 working 
for you and 100 in other places. The 100 in other places, how 
many have a work coach?
    Mr. ROOS. Out of the 100 that became employed 
competitively, probably the majority if not all receive some 
level of job coaching. Support and employment through the 
Office of Vocational Rehabilitation or through the home and 
community-based waivers is a great service for people looking 
to get into community--between community-based assessments, job 
development, job coaching, placement, follow along, that has 
really been the key to the success for those over 100 people 
and almost all have accessed that service.
    Mr. GROTHMAN. Okay. Okay. Now we have got 165, which means 
there are still 335 to go who at one time worked on your floor 
and now are not. What became of the 335? Could you break that 
down for us?
    Well, first of all, I have got another question for you. 
You mentioned you have 100 working outside of your facility. Of 
those 100 how many are working say at least 30 hours a week?
    Mr. ROOS. Very few. We probably average about 18-20 hours a 
week across those 100 people.
    Mr. GROTHMAN. Okay. So they really--as far as the value of 
work or the self-satisfaction of work, you have got--of the 65 
who are still working at ACHIEVA, how many are working what I 
would call full-time or what you would call full-time?
    Mr. ROOS. For that 65, we are probably in the same range, 
although a little bit higher, about 20-25 hours a week for that 
65.
    Mr. GROTHMAN. Okay. So you really have very few people who 
are now working let us say at least 30 hours a week?
    Mr. ROOS. That is correct.
    Mr. GROTHMAN. Okay. So if I have somebody who is right now 
happy in a work center and is working 30 or 35 hours and is 
proud to be like so many other people in society, so many 
people like siblings in their society, when we pass this bill a 
very tiny percent are still going to have the satisfaction of 
working say 30-35 hours a week and kind of like being like 
everybody else.
    Is that true? Apparently?
    Mr. ROOS. When you say working in a facility like that, 
that number of hours a week, I would argue that in essence they 
are not working. They might be attending, they might be 
physically present 30-35-40 hours a week, but they are not 
working.
    I discussed in my testimony there is a lot of down time 
that occurs in those workshops. Work is not always available. I 
still see people prior to our closure doing work sampling, 
where one person will put together a widget and the guy across 
the table from him would take it apart.
    Mr. GROTHMAN. Okay.
    Mr. ROOS. So attendance versus working are two different--
    Mr. GROTHMAN. Okay. Now I will give you another question. I 
have 10 work centers in my district. I have a very high opinion 
of all of them. Right now there are people who work part-time 
in a work center and part-time out in the community. Some of 
these people are very proud to work out in the community and 
wish they could work more hours out in the community. Other 
people prefer to work in the work center, for a variety of 
reasons, and they are very adamant in that, that they prefer to 
work in the work center.
    Why would we vote on a bill or for a bill in which people 
who are happy working in the work center no longer have that 
right or, as you say here--in essence pushing them out of their 
work center because ``all too many current certificate holders 
will not take that approach under their own volition''. In 
other words, they don't want to, but the government has to 
force them out of a job they currently like.
    Mr. ROOS. Elimination of a 14(c) doesn't force people out 
of a workshop necessarily. I would challenge those workshops 
that if they support their business model and they have a happy 
workforce, to find a way to pay minimum wage, just as we have 
done in our business operations, successfully.
    Mr. GROTHMAN. I don't know what your average employee is 
like, but at least the work centers that I deal with, there are 
a lot of people who fairly obviously cannot produce at a 
minimum wage, right. The minimum wage I think is $7.50. there 
is a bill we have heard here that it is going up to 15 bucks. I 
would think it is somewhat obvious that it is hard to put 
together a work plan in which you can take somebody like that 
and make money while paying them, you know, $4-500 a week. And 
you could wind up with some very unhappy people.
    Do you agree?
    Mr. ROOS. I agree that you need to look at your workforce 
in terms of their ability to contribute and produce, but I 
would argue that if you have people in a work center that 
clearly aren't showing those abilities or showing any 
advancement towards competitive employment, then I would 
question as to why they are in a work center when there are 
other home and community-based services available to them that 
would provide to them a fulfilling community life.
    Mr. GROTHMAN. Do you mind if I respond, Mr. Chairman?
    I mean I will give you an example and you can tell me what 
I should tell them. I ran into a guy in my district recently, I 
think he is 34 or 35 years old. He is severely physically 
handicapped. He gets paid well under minimum wage, as he is 
incredibly physically handicapped. Very sharp though, very 
bright. He was laid off, for whatever reason, because the 
government said this is not okay. His dad tells me he is 
crushed. That they put him in day services, which his dad and 
him describe as babysitting.
    So he has gone from maybe making $.80-$1.00 an hour, but so 
proud of that paycheck he earns, to going in day services, 
babysitting. And this 33 or 34-year-old sharp guy, he is 
crushed. What should I tell his dad?
    Mr. ROOS. Yeah, I don't promote segregated day services 
either, and I don't think that is the right solution for that 
gentleman that you have just described.
    The Center for Medicaid Services is looking at something 
called community participation supports as a way of getting out 
in the community, short of having to rely on a facility, any 
type of facility.
    Mr. GROTHMAN. He is crushed because he doesn't have a job, 
he is not earning a paycheck, not because he wants better day 
services.
    Chairman SCOTT. The gentleman from California, Mr. Takano.
    Mr. TAKANO. Thank you, Mr. Chairman.
    I am very pleased today that the Committee is considering 
the passage of POWADA, which stands for Protecting Older 
Workers Against Discrimination Act. I don't want to use the 
word POWADA because I want the people to understand what we are 
talking about.
    Ms. McCann, just briefly tell me what this law would do, 
this Act would do.
    Ms. MCCANN. Sure. The Protecting Older Workers Against 
Discrimination Act would restore the ADEA and other civil 
rights statutes that have been negatively impacted by the Gross 
decision back to the standard of proof that applied to it prior 
to 2009. So it does not expand the law, it restores the 
standard of proof that was disturbed by Gross.
    Mr. TAKANO. Because of a Supreme Court decision. I have 
become familiar with some of the facts around Mr. Gross' case. 
And as I understand it, he was working with a great record, 
rising rapidly in the company, the company was merged with 
another company, and then he was demoted and dismissed. Do I 
have the facts correct?
    Ms. MCCANN. You have them exactly right. He, you know, 
worked for his company for 30 years, steadily rising among the 
ranks, always getting good reviews. But then after the merger 
and a reorganization, some employees were offered a buyout, Mr. 
Gross was not. Instead he was demoted and his new position, he 
tells me, he basically was given no responsibilities, and as a 
result, he got a poor review
    Mr. TAKANO. So we have seen the same old--this is a big 
statistic we always cite, this trajectory of increased 
productivity in our country, but yet workers not sharing in 
that productivity and technology is blamed. But I contend, as 
many others are starting to contend, that it is the rules of 
our economy and the ways in which the protections for our 
workers, for basic fairness in the workplace, have atrophied 
and then weakened. And the way I look at this, the Supreme 
Court decision made it far more difficult for people like Mr. 
Gross to prove that he was discriminated against based on his 
age. He was a great worker, producing--part of the productivity 
of the company, but these new managers that came in had this 
obvious economic motive to reduce the salary obligations they 
had to workers like Mr. Gross. Right, Ms. McCann?
    Ms. MCCANN. Correct. And I also want to add that he 
actually--Mr. Gross actually was able to prove that age did 
play a factor in his demotion. He proved that in the District 
Court and the employer was not able to prove that it would have 
made the same decision if it hadn't considered his age, and he 
won. And it was only until the Supreme Court said that actually 
he also had the burden to prove that negative hypothetical that 
despite the fact that he had proved his age was a factor, that 
the employer would not have taken the same decision, would not 
have demoted him--
    Mr. TAKANO. He had to prove that the employer did not have 
any other reason to do what they did?
    Ms. MCCANN. Exactly, exactly.
    Mr. TAKANO. Right? Even after he had proved that 
discrimination was--
    Ms. MCCANN. Even after he had already proved--
    Mr. TAKANO.--that discrimination was definitely--age 
discrimination was definitely a part of it.
    Well, I can definitely see a lot of Americans who are 
reaching, I mean, this age. And I mean I think this last 
recession--I mean we are at full employment now, but I think 
there are a lot of Americans, older Americans, who are going 
back to work because they have to, who cannot reach the same 
salary levels that they had before this last recession. This 
protection is so important to Americans.
    Look, here is a question I want to ask you. Even if we fix 
this, that will be an important thing if we fix this with the 
protecting older Americans, but don't we also face the burden 
of a growing number of employers who are forcing their 
employees to sign employment contracts which force them into 
arbitration, which I mean even if they have this private right 
of action and can prove discrimination, that is also a barrier?
    Ms. MCCANN. That is also a barrier to employment. As I said 
in my testimony, all the barriers that older workers face 
cannot be addressed in one hearing. And POWADA certainly does 
not address that situation, but it is also a significant issue.
    Mr. TAKANO. I am pleased that this legislation is 
bipartisan. I am please we see a number of Republicans, 
conservative Republicans actually joining us and--I mean they 
understand it. The older Americans is a huge voting population.
    But it is important also--and I don't want to--I want to 
move toward the light instead of crossing the entire darkness, 
but I also just want to make the point that it is incomplete 
today, that we need to pass POWADA, but we also need to deal 
with forced arbitration. That if we enhance your protections 
but we don't really give you a full remedy to make sure that 
you have a right to enforce these rights, then that is only--
that is a halfway measure.
    I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you.
    The gentleman from Idaho, Mr. Fulcher.
    Mr. FULCHER. Thank you, Mr. Chairman.
    I have got a question for Mr. Pianko. I wanted to make 
maybe just a point first and shift gears a little bit to an 
area that we really haven't talked about yet.
    But you made a statement in your testimony that some 40 
percent of college graduates are under employed with their 
first job and 10 years later probably half of them still are. 
Honestly, that makes sense to me because that is kind of what 
we see in my home State of Idaho. And we have an incredibly 
good statistic when it comes to unemployment. It is like less 
than 3 percent. And this is overall, all employees. But yet 
more than 20 percent are on some kind of public assistance. And 
so we see that.
    In our State--and this is kind of the point I wanted to 
make and then I am going to follow up with a question--but in 
our State part of the reason is a little bit different. We used 
to be more dependent on resource-based jobs, manufacturing 
based jobs. And due to a number of reasons, a lot of regulatory 
and legal and that type of thing, those jobs have transitioned 
to service-based jobs. Nothing wrong with service jobs, they 
just don't have the same economic impact.
    So that is the point I wanted to make.
    And you also said the nature of work has changed, and that 
is in our State, and I think other states in the west in 
particular, that is part of it.
    It has put more focus on the need to be the entrepreneur. 
Entrepreneurs are different skills type of people. How would 
you recommend to incentivize that entrepreneur? You are 
shifting the paradigm. How do you encourage that new generation 
of entrepreneurs?
    Mr. PIANKO. That is a hard one. Look, I actually went to 
Stanford for business school, which is sort of the heart of 
Silicon Valley and entrepreneurship. It is an ecosystem that 
takes a lot of time to develop. And actually, you know, we in 
this sometimes beat up on colleges and universities for not 
providing people a pathway to employment.
    One thing universities do extremely well is serve as hubs 
for entrepreneurial ecosystems. And universities attract a lot 
of research funding from the Federal government and from 
private industry. And so one of the things that you can do is 
to encourage the development of--you know, you have got some 
really wonderful universities in Idaho--encouraging the 
development of those universities into research hubs and sort 
of entrepreneurial hubs.
    The second thing, and this is--I think it is hard to 
underestimate the debilitative impact of student loans on 
entrepreneurship. If you have a $100,000 or $30,000, or any 
number of student loans, and if you don't make your student 
loan payment you are in default and your life kind of falls 
away. It is incredibly different to take that risk to start a 
company.
    And so the other piece beyond sort of how you on the 
positive side create that ecosystem is it is incredibly 
imperative--and I think the gentleman from Tennessee left--but 
some of the states are really working hard to minimize the 
student loan impact, especially for students who go to state 
university systems. And I think this body, you know, has a real 
obligation at this point to help fix that problem. There are a 
number of very good solutions to it.
    The downside of federalizing the financial aid system about 
10 years ago is--I think the other side of it, you know, we 
really tried to encourage access, but then suddenly now that we 
have so much access that there is $1.5 trillion of debt. That 
would be fine if we were all paying it off, but we are not.
    And so I think those two pieces as a policy maker is what I 
would encourage you to look at.
    Mr. FULCHER. Okay. Those are definitely worth looking at.
    I have got just another minute, so I am going to do a quick 
follow up. An example, possibly, of one of the areas that 
started to bear some fruit. I just wanted to know if you heard 
anything like it before. In our--again, in our State and in the 
west there is a lot of open land. Drone usage, for example. It 
can be used for a whole host of things, infrastructure, aerials 
for forest management. The list goes on and on, power lines, 
utility lines, all that.
    We have an inventive community college that started a drone 
operator software. Have you heard of anything like that? And 
for things like that, any idea for incentives or ways to try to 
incent that type of education?
    Mr. PIANKO. The most important thing you said is you have 
picked an area of expertise. Too many colleges and--too many 
states say oh, we are just going to create entrepreneurship, 
right. That aspect of having to create a center of excellence 
around drone research, I have actually read a little bit about 
this. I mean take advantage of your natural resources. I 
haven't heard--there are a lot of programs developing around 
drone usage, there is a lot of funding head toward drone usage. 
I think it is going to be big. But that is not my area of 
expertise.
    What is my area of expertise is you have to take the most 
important first step. You have identified an area where you 
have some form of advantage because of open land, low 
population density, and you have created a locus for what can 
become a thriving economic ecosystem that drives lots of high 
paying good jobs. And that is what I would encourage you to 
think about.
    Mr. FULCHER. Thank you to the panel.
    Mr. Chairman, thank you.
    Chairman SCOTT. Thank you.
    The gentlelady from North Carolina, Ms. Adams.
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you to the 
Ranking Member as well. And to the witnesses, thank you for 
being here today.
    I want to start off by mentioning that I am a proud co-
sponsor of H.R. 1230, the Protecting Older Workers Against 
Discrimination Act. I support it because there is no reason why 
elderly Americans should be held to higher evidentiary 
standards than workers who are discriminated against because of 
sex or race or religion or national origin.
    And we have heard a lot from this Administration about our 
record low unemployment rate, but we know that number doesn't 
entirely reflect the status of our economy. We also know that 
older workers are consistently given the short end of the 
stick. Age discrimination claims represent 20 percent of all 
EEOC claims. And in times of economic slowdown, older workers 
are more likely to be laid off, which can have terrible impacts 
on a future life expectancy.
    So, Ms. McCann, with all of that being said, in this 
current economy with low unemployment rates, is age 
discrimination still an issue?
    Ms. MCCANN. Unfortunately, very much so. The number of age 
discrimination charges certainly does surge during times of 
economic downturn, but they never go away. The share of older 
people who still want a job but have not been able to find one 
has not recovered from pre-recession levels. And the reasons 
are, one, hiring discrimination. Hiring discrimination is 
rampant, but it is very hard to prove. And so employers have no 
incentive to self examine their hiring policies to reduce them.
    And the other reason that age discrimination is still a 
problem is that a lot of the jobs in this economic recovery are 
low skill and low quality and low income. So you have a lot of 
older workers who are under employed who are still looking to 
find better jobs.
    Ms. ADAMS. So do the unemployment numbers accurately 
reflect a number of long-term unemployed older workers?
    Ms. MCCANN. They certainly reflect the number, but I don't 
think they are totally accurate. It doesn't capture all of the 
discouraged workers, and again, those who are still looking for 
a job but have not been able to find one.
    Ms. ADAMS. Okay. Thank you very much.
    Let me move to Ms. Bird. I want to touch on the issue of 
barriers to employment for people who get caught up in the 
criminal justice system. A lot is being said about ex-offenders 
and the importance of a full reintegration into society by 
providing quality employment, and rightfully so. But I also 
want to address those who are arrested for low level crimes, 
such as minor drug possession. And there have been a lot of 
studies conducted that show racial disparities and how 
prosecutors make charging decisions for low level crimes. We 
know that arrests that remain on an applicant's record can 
impact employment opportunities regardless of whether the case 
is dropped in the future.
    So, Ms. Bird, in your opinion, could addressing the 
decision making of prosecutors have a meaningful impact on 
tearing down a barrier to employment?
    Ms. BIRD. I think that is a part of lowering barriers for 
individuals who have been--had an attachment to the criminal 
justice system. So it is a part of it. But what we really need 
to think about is beyond arrest, for those who have been 
incarcerated, how do we start not at reentry as a way, but as 
while folks are incarcerated, including adult education and 
training while folks are inside, and that is correctional 
education. And we have a number of different models from around 
the country. That is important.
    The decisions that prosecutors make, it is very important. 
And we have examples also of partnerships with workforce 
development boards around the country that create diversion for 
in particular young adults that have access to more work 
opportunities, more work experience, youth development 
programs, and mentors.
    So it is not a one size fits all solution. But as I 
mentioned earlier and in my testimony, we really do need cross 
system solutions and the investments in things that we know 
that work.
    Ms. ADAMS. Okay, great. Thank you very much.
    Mr. Chair, I yield back.
    Chairman SCOTT. Thank you.
    The gentleman from North Carolina, Mr. Walker.
    Mr. WALKER. Thank you, Mr. Chairman. And I would like to 
thank the panel for being here today.
    I have got a couple of questions I would like to get into 
for Mr. Pianko, but I would like to actually start with Ms. 
Bird.
    And, first of all, just to comment, I was looking at it, it 
looks like you work with economic justice, criminal justice 
reform, and mental health policy, specifically for youth and 
young adults. I think that is very important. And I remember 
taking student mission trips as a pastor for 16 years in the 
places, the inner cities of Cleveland, New York, and Baltimore, 
and saw it first hand as far as what can be done. So I commend 
your heart and passion. It is very obvious today that you 
believe in what you are saying here. And I would venture to 
guess there is probably a little bit of a faith perspective 
coming from--but no response there, it is just my hunch.
    Republicans have tried to lead the way in many of these 
areas. Opportunity zones, as far as when we talk about 
investments into some of the different areas, also First Step 
and Second Chance Act, some of the investments that continue to 
grow in the HBCU areas and other places.
    So I think there is a conscientious level that the Federal 
government does have a role in some of this. But also I do 
believe that there--one of the gentleman earlier on one of the 
colleagues on the Democrat side said this is not about grit. I 
agree with that, but I do believe that part of this is a level 
of personal responsibility coupled with these other areas to 
show that the self-worth can be reached to a place to 
accomplish some of these things. And I think that is where 
sometimes the Federal government can overshoot the runway, 
almost creating an enabling mindset as opposed to one that 
continues to persevere. Because adversity is in every one of 
our lives, and adversity is what builds that integrity or 
character to be able to overcome some of this.
    And I just want to make sure--not that you are not saying 
this--there is a balance approach as far as what the Federal 
Government's role is, but also what needs to be done in some of 
the workforce training. So a little bit of a commentary, and if 
I have time I will come back to you for a response on it.
    But I just wanted to say I appreciate specifically--because 
if you can capture the youth, if you can show a better pathway 
for the youth, I think you have a chance of really making a 
positive impact.
    Mr. Pianko, given the consistent lack of skilled workers in 
today's workforce, what kind of long-term effects does this 
kind of skills gap impose on our economy and our ability to 
compete, not just here, domestically, but on a global scale?
    Mr. PIANKO. So this is--we are in a global market right 
now, where we are in competition for jobs and jobs are driven 
by skills. There is a London Center of Economics study that the 
skills gap costs about $160 billion to the U.S. economy. And, 
frankly, we have a massive deadweight loss to the economy by 
all the money we spend on recruiting and training and then not 
having that person actually end up--the educational system not 
getting them the jobs that they need to be competitive. So we 
have invested all this money and then we don't get the outcome 
we want. And so, it is critically important and I think you are 
on to an important topic.
    Mr. WALKER. Well, you mentioned in your testimony that 
under the current Federal work-study structure it is easier for 
a student to get a job, to use your word, mopping floors on 
campus than getting hands-on workforce education at a private 
business off-campus. Can you break that down or give the 
weights of that for just a minute on how additional flexibility 
to spend Federal work study funding off-campus jobs would 
enable students to gain the hands-on experience needed to enter 
the workforce?
    Mr. PIANKO. So right now less than I think .1 percent of 
all Federal work study dollars are spent with private 
businesses.
    Mr. WALKER. You said .1 percent?
    Mr. PIANKO. I believe it is .1 percent. I can--counsel is 
nodding his head, so I think I am right on that.
    Mr. WALKER. Wow.
    Mr. PIANKO. Which is a shockingly small number. We all talk 
about, and this is where I will get on a soapbox for a second, 
apprenticeships, okay? We have a billion dollars sitting here 
that could be effectively funding the start of a major 
apprenticeship movement in our country and instead, you know, 
something like 75 or 80 percent of those dollars are spent 
doing on-campus jobs that don't have a direct connection to 
employment. And so I believe that Secretary DeVos recently--
this morning announced that they were going to expand a pilot 
program to start experimenting here, but I would strongly 
recommend that the Congress as part of HEA--
    Mr. WALKER. In my final 20-some seconds, sorry to interrupt 
you there, and you were going there a little bit, can you speak 
to the role apprenticeship programs play in reducing the skills 
gap for students who do not have the resources to attend a 
four-year college or university?
    Mr. PIANKO. If there is one thing that matters it is 
reducing the friction between educators and employment. And, 
you know, I hate to quote a European model, but I think it 
actually works in the apprenticeship system, which is you 
actually combine work and education into one and you bring the 
skills training into the education. And if you look at the 
funding models that exist in places like Switzerland and 
Germany that have created this apprenticeship model that works, 
it is based on that premise.
    Mr. WALKER. Thank you. Mr. Chairman, I yield back.
    Chairman SCOTT. The gentleman yields back. The gentlelady 
from Pennsylvania, Ms. Wild.
    Ms. WILD. Thank you, Mr. Chairman. Mr. Roos, I would like 
to start with the question about the issue of disabled workers 
earning competitive rates of pay. The times have changed so 
very much and I do truly believe that the disabled deserve to 
live independently and that subminimum wages certainly won't 
encourage or enable that to happen. And I very much want to 
sign onto H.R. 873, the Transformation to Competitive Wages 
Act. But I will tell you, and I am asking this question really 
in an endeavor to be able to respond to advocacy groups who 
have contacted my office and have claimed that H.R. 873 would 
have a chilling effect on the hiring of workers with 
disabilities and particularly those with the most severe 
disabilities. Can you address that? Help me out with this 
issue.
    Mr. ROOS. Sure, I would be glad to. I have heard all those 
concerns, as well, and we heard those from families back in 
2015 when we made the announcements that we were going to 
transform our vocational supports. And honestly, I just haven't 
seen it in reality. For those who truly want to work, I stand 
by the fact that the supports are in place to empower that to 
happen, to supported employment technology. Partnerships with 
local employers has really been key to our success in finding 
competitive opportunities for people with disabilities, even 
the most severe disabilities.
    There is also that group of people, as I was alluding to 
earlier, that I truly don't think work is what is important to 
them necessarily, yet they are in a workshop. And it is really 
finding what is meaningful to them if that workshop were no 
longer a possibility. And, you know, I think they are commonly 
referred to as wraparound services. There are many services 
available, and through those home- and community-based waivers, 
that can help someone live a fulfilling life and meet those 
health and safety concerns that arise quite often when we think 
about workshops not being there.
    But again, I always go back to the point that if someone 
wants to be employed, I truly feel that they can be at a 
competitive level earning a rate at or above minimum wage, 
commensurate with other people doing the same job in the same 
industries. It is just piecing together those services and 
supports that they are going to need to be successful.
    Ms. WILD. So you don't believe that there would be 
additional costs to the employer other than the higher wages?
    Mr. ROOS. I don't. Reasonable accommodations are usually 
quite cheap, quite frankly. Employers get scared about that a 
little bit in terms of having to make those reasonable 
accommodations, but most of the time it is really not much of 
an investment on their part.
    For current 14(c) holders, if they want to maintain their 
current work they are doing and maintain the contracts they are 
doing, they are going to have to do it through a reduced 
workforce. You know, our business operations used to operate 
with--it was discussed earlier--
    Ms. WILD. Excuse me, I am going to stop you there.
    Mr. ROOS. Sure.
    Ms. WILD. Just because I have questions, other questions I 
want to ask.
    Mr. ROOS. Sure.
    Ms. WILD. And, of course, we always have limited time, but 
thank you very much for your input.
    Ms. Bird, I want to address the issue of criminal 
background checks in the application process. I represent a 
district in Pennsylvania. And in Pennsylvania, an employer can 
consider an applicant's felony or misdemeanor conviction in the 
hiring process only if they relate to the applicant's 
suitability for the job. If the employer decides not to hire 
someone based on his or her criminal record, the employer must 
inform the applicant in writing.
    And while I think that law is imperfect, because an 
employer is granted great deference in determining the 
applicant's suitability for the job, I do like the requirement 
that the employer inform the applicant in writing that the 
criminal background was a factor in the hiring process.
    Do you see any utility or application of that kind of 
provision at the Federal level as a deterrence to 
discriminatory hiring practices?
    Ms. BIRD. Yes, and I think there are a number of other 
approaches, as well. We know we have incorrect records, and so 
there is a remedy for that. We know that we have seen 
expungement be really important and really critical because we 
have young people and older adults who may have had an 
infraction when they were in their late teens, and it still 
follows them 10, 20 years later. And so the research does bear 
that out.
    So I think to have approaches that address a number of 
things, incorrect records, and you might have been arrested, 
but there is no actual detention or incarceration.
    Ms. WILD. And if you weren't notified by the employer of 
why you weren't hired--
    Ms. BIRD. Exactly, exactly.
    Ms. WILD.--you wouldn't know to address that.
    Ms. BIRD. Much like we do in our credit background checks. 
There are incorrect things and it allows us to have increased 
credit scores. So it is really important to apply a number of 
approaches.
    Ms. WILD. Thank you very much. I yield back.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Meuser.
    Mr. MEUSER. Thank you, Chairman Scott. And thank you, Dr. 
Foxx. And thank you to our witnesses.
    As we know, unemployment has hit its lowest point in 50 
years. The economy has added 4.6 million jobs over the past two 
years. Mr. Pianko mentioned in his testimony America is facing 
an unprecedented mismatch in the supply and demand of talent, 
and I quote. I do not believe we need new laws, more 
regulations, and heavy-handed government to close the skills 
gap. I was in business for 25 years. Historically, it is not 
the Federal government, but the innovation initiatives of 
businesses that have successfully closed skills gaps over the 
course of time. Perhaps we are in a new area with new 
challenges, but that certainly has been the history.
    I also believe that any education and support for education 
provided to career and technical schools deserves equal the 
support provided any higher education school.
    I also believe with Mr. Roos related to people with 
disabilities, those with disabilities, and the work that they 
can do, those who happen to have disabilities, and their 
importance to a productive business team.
    So all that being said, Mr. Pianko, I want to start with 
you, please. The funding for higher education, Federal and 
State, over the past 20 years, do you know how much that has 
gone up over the past 20 years in general, rough terms?
    Mr. PIANKO. I think that is a very difficult question to 
answer.
    Mr. MEUSER. Right.
    Mr. PIANKO. I am sorry. It would take a thesis to get you a 
good answer on that.
    Mr. MEUSER. Roughly it is about double. So, as you probably 
guessed, since 1999 to 2019 we have doubled the Federal and 
state expenditures for higher education, not to mention the, 
well, the level of student loans that you could also add on top 
of that. So the funding has been there.
    Perhaps we should be smarter in planning ahead from this 
day forward, as you have been mentioning.
    So a couple of my questions are, have businesses 
statistically, according to your statistics--I do my ``me'' 
search throughout my district, but your research, have 
businesses embraced career and technical colleges for 
recruitment?
    Mr. PIANKO. So I think it is very spotty. I think in 
general the talk is more than the reality and everyone in their 
district probably has one example where a company and a 
technical college kind of coordinated on something. And I think 
there are some exceptions, like Tennessee. I think the 
Commonwealth of Pennsylvania has really struggled in this area, 
as an example, so I think it is very spotty.
    Mr. MEUSER. Do you have any examples, any models, anything 
you can point to that--
    Mr. PIANKO. Well, I think Tennessee has done an excellent 
job. I think Colorado--I forgot to mention earlier, I don't 
know if there are any representatives from Colorado. Colorado 
has really made a real effort on this, some other states, as 
well. I think there is some--I think if you want real Federal 
action across the board, the only way to truly incent 
businesses, and I think it impacts achievement, is to actually 
put some real dollars behind the coordination of the education 
infrastructure and the employment infrastructure. And I think 
that is really where we would have to go.
    Mr. MEUSER. So on-the-job skill development is where it is 
happening.
    Mr. PIANKO. And I agree with your point. We are spending 
enough money on education. So the issue isn't how much money 
are we spending. The issue is how are we spending it.
    And, you know, take the Federal work study example, I mean, 
that is a perfect example, or GRAD Plus. I mean, we have these 
massive, massive programs that are well-intentioned, but they 
are not actually achieving the goals that we want them to 
achieve. So I would encourage you to think about redirecting 
dollars and sort of encouraging this education employment 
ecosystem connecting rather than new dollars and new 
regulation.
    Mr. MEUSER. I mean, some companies take great pride in 
their workforce development, but what they offer to those with 
disabilities and to all people, but not all companies, of 
course, do that. So there is certainly a place for career and 
technical development.
    Mr. PIANKO. I think there is--companies aren't going to 
change. You have got two organizations that just don't talk to 
each other. Companies, they want someone who programs in 
Python, who can, you know, on June 30th in Harrisburg, 
Pennsylvania.
    Sorry, go ahead, congressman.
    Mr. MEUSER. Clearly, your number, 74 percent of academia 
thinks that they are doing great in this regard and 15 percent 
of the workforce.
    So my time is up. I yield back.
    Chairman SCOTT. Thank you. The gentlelady from Connecticut, 
Ms. Hayes.
    Ms. HAYES. Thank you, Mr. Chair. And thank you to all the 
witnesses for being here today.
    Last Friday, we marked the 65th anniversary of the Brown v. 
Board of Education decision, a landmark ruling declaring that 
school segregation was unconstitutional. Unfortunately, we know 
that systemic racial segregation continues to leave youth of 
color behind. The overwhelming number of disconnected youth in 
this country come from disconnected communities marked by high 
adult unemployment, poverty, racial segregation, and low levels 
of adult education attainment.
    High poverty, racially segregated communities often lack 
the opportunities for upward mobility, contributing to higher 
youth disconnection rates for communities of color. From 2016 
to 2017, Black youth were the only racial group who saw an 
increase in rates of being disconnected. I mean, groups 16 to 
24 coming from high poverty areas who were not in school.
    In Connecticut, there are over 44,000 disconnected youth 
ages 16 to 24. In my district alone there are 8,100 
disconnected youth.
    So my questions today are for Ms. Bird. How does racial and 
income segregation make it difficult for youth of color to 
access the social capital and networks that afford them access 
to traditional business and industry sectors?
    Ms. BIRD. So as I mentioned in my oral testimony as well as 
my written testimony that these issues are structural and they 
are about segregation and proximity to networks that allows you 
to gain access to work experience. In our research with young 
men of color we found that references and work experience, 
those two issues, are critical in creating access. So the 
question is how can we create more opportunities in particular 
for African American and Native American youth who have these 
high disconnection rates due through workforce investment 
system.
    Ms. HAYES. Thank you, and I couldn't agree more. I have 
seen that same thing right here on the Hill when I am trying to 
recruit interns or hire staff. There are people who have just 
never had access to the types of opportunities that are 
provided here, so they have never had the experience to now 
quality for the jobs.
    So what does the evidence tell us about the effectiveness 
of summer job programs in improving academic outcomes for 
school youth?
    Ms. BIRD. I am glad you asked that question because I was 
just thinking about my first summer job experience. I am born 
and raised in Philadelphia, and many of the skills that I 
learned on that first summer job which I didn't know was a 
workplace learning opportunity at the time, but it was a 
partnership with the school district and the University of 
Pennsylvania, was gaining positive self-concept, communication 
skills, social skills. And so the research bears it out, but 
what we don't have is that same level of Federal investment 
that we had when I was able to have that opportunity.
    Employers say they need and want it. When they have young 
people, they want to keep them over time. And we have research 
that shows that it keeps kids safe in the summer as well as 
increase our attendance and student engagement.
    Ms. HAYES. I am so glad you said that. Let us talk about 
it.
    Ms. BIRD. Okay.
    Ms. HAYES. Because my first job was at New Opportunities as 
a summer youth counselor, and that was actually my next 
question. How does it impact attendance rates and test scores?
    Ms. BIRD. Yeah. So there is a couple of new research that 
is in Detroit, for example, and studies, so we think that there 
needs to be more research invested in what are the impacts of 
summer jobs, but we already know there is a great body of 
research already there. So it improves test scores. It 
increases attendance, but also these transferable skills that 
folks call soft skills, which really we call essential skills 
in our field, are transferable over a lifetime.
    Ms. HAYES. And how does that impact transitioning into the 
workforce?
    Ms. BIRD. So the research bears it out. The more you work 
one year, the more you work another year, and so work 
experience is literally critical. And in the Workforce 
Innovation Opportunity Act there is a carve-out--I wouldn't 
call it a carve-out, but 20 percent to support work experience, 
which includes a number of different things we were talking 
about, but it really isn't enough.
    Ms. HAYES. I love just hearing you speak because you are 
literally adding credibility to everything that I know already 
to be true. And so my last question, does current Federal 
funding, including WIOA Title I youth funding formulas, ensure 
that groups of young people are prioritized?
    Ms. BIRD. Yes. Well, it provided the--what I will say, the 
infrastructure and framework as I mentioned, but it could do 
more. And what I mean by more is when we are talking about 
individuals of various employment or opportunity youth, we know 
it is not a traditional kind of route to pathways. And so the 
more means supportive services, the more means additional 
partnerships, the more means more investments and work 
experience and references, as I mentioned.
    Ms. HAYES. Thank you so much.
    Chairman SCOTT. Thank you. The gentleman from Pennsylvania, 
Mr. Smucker.
    Mr. SMUCKER. Thank you, Mr. Chairman. Mr. Roos, I would 
like to just clarify your position. This is following up to 
some of the questions from Mr. Grothman. Are you opposed to the 
14(c) wages or do you think that all organizations should close 
their work centers?
    Mr. ROOS. First and foremost is the payment of subminimum 
wage.
    Mr. SMUCKER. Sure. What about the work centers?
    Mr. ROOS. I think that, for example, to answer your 
question, one of our work centers was transitioned into an 
affirmative industry model. In that model we were able to do 
the same. It is pallet manufacturing and packaging. We were 
still able to do the same type of work we did before, it is 
just an integrated workforce.
    Mr. SMUCKER. And I am going to stop you, I am sorry--
    Mr. ROOS. Sure.
    Mr. SMUCKER.--because I can't take my entire five minutes 
on this. But I concur with some of the comments that Mr. 
Grothman had made. I have a number of very effective work 
centers in my areas who are serving individuals with 
disabilities and in some cases very severe disabilities. They 
are groups of parents in some cases who have come together to 
try to provide the best opportunity they possibly can for their 
sons and their daughters. And I have spoken to those parents 
and talked with them about how they feel and how their sons and 
daughters feel about working in a facility like this. These are 
individuals who require supervision that generally cannot be 
provided.
    So, first of all, I want to say the goal is always to get 
someone into an integrated workplace if they can. And, in fact, 
today I think they are making more of an effort to do that than 
maybe in the past, and that is a good thing. But, you know, I 
think your numbers of how many people have transitioned to a 
workforce tell the story of what can potentially happen if you 
are going to close all the workforce centers.
    These groups have contracts with businesses. They are 
providing a valuable service in a setting that can provide the 
self-worth of a job. So I would ask you to rethink requiring, 
you know, the goal of every work center to be closed.
    Mr. Pianko, I do want to get--I thank you for your 
testimony and some of your policy suggestions you used. The 
last-mile training, I think staffing agencies can be a 
potential solution there; I have seen that. And as your 
testimony highlighted, the nature of work has changed, so we 
need additional training.
    I happen to believe that our community colleges and 
technical schools can play a very, very important role in 
addressing employment and what you call the hiring friction. I 
very much agree with your suggestion that Congress should make 
more of these programs eligible for receipt of dollars from the 
Pell program.
    I do want to go to your testimony and perhaps take issue 
with the way you have characterized businesses. You literally 
say investing, too often businesses look at things through the 
lens of a free rider problem. Investing in education is more 
likely a gift to a company's competitors and hence for suckers. 
Do you really think businesses view their workforce in that 
way?
    Mr. PIANKO. I think it was specifically tied towards 
dollars spent. And there is a big different between spending on 
something that will benefit you as a company, so teaching them 
the specific software--
    Mr. SMUCKER. There is a quote from Henry Ford, ``The only 
thing worse than training your employees and having them leave 
is not training your employees and having them stay.''
    Mr. PIANKO. So--
    Mr. SMUCKER. In my experience, I think businesses, 
employers need to be the first ones to make the effort to 
address the skills gap.
    Mr. PIANKO. I think--
    Mr. SMUCKER. And the businesses in my area that I talk to 
understand that investing in their employers--I was a business 
owner myself, several hundred employees, investing in my 
employees was the most important investment that I can make. If 
you are losing employees to a competitor, then you are not 
doing what is needed to provide the kind of workforce that your 
employees want to choose to work in. So I would encourage you 
to think differently about how businesses should be thinking 
about training.
    Mr. PIANKO. Now I understand your question. I totally agree 
with you. I think it is incredibly shortsighted. I think 
businesses are actively--are actually acting in a shortsighted 
manner by not creating educational options. And so I think that 
we actually have a rare case where businesses are willing to 
invest in talent. And, frankly, one of the biggest things--
right now what happens is businesses--
    Mr. SMUCKER. I think--
    Mr. PIANKO. Yeah, I agree with you, yeah.
    Mr. SMUCKER.--that is what businesses need to do and then 
the investments and the partnerships with community college, 
the apprenticeship programs, can really improve the workforce. 
But it would be a disaster for businesses not to understand 
that they have to take the lead in investing in their 
workforce.
    Mr. PIANKO. And, unfortunately, too few businesses are and 
that was the point of that comment.
    Mr. SMUCKER. Thank you.
    Mr. PIANKO. Especially around entry level hiring. Entry 
level hiring is where this is a big issue.
    Chairman SCOTT. Thank you. The gentlelady from California, 
Ms. Davis.
    Ms. DAVIS. Thank you, Mr. Chairman, and thank you all for 
being here. I am going to support my colleague and my Ranking 
Member on the higher ed subcommittee because I think that there 
actually is a lot of excitement here about how we best develop 
programs, apprenticeship programs, that really are going to 
scale in this country, different from what we have today. And 
so I wanted to move that conversation a little bit during my 
time.
    We have talked about a number of systemic barriers and that 
is very important. I think, you know, we always have to ask 
ourselves who benefits when we break those barriers down and if 
there are people who lose. I am not we--I think we all benefit. 
Maybe we can check your feelings about that in a second.
    But for Mr. Pianko, as I understand it, and please correct 
me if I am wrong, that within your realm you do have a number 
of registered apprenticeship programs.
    Mr. PIANKO. Sorry, one, TekTonic has the first Department 
of Labor approved registered apprenticeship program in software 
development, yes.
    Ms. DAVIS. Uh-huh. Could you share with us then how you 
think that is a proven model or can be a proven model? And what 
evidence-based--I think evidence do we have basically that 
creates a more portable system for anybody who is engaged in 
that process?
    Mr. PIANKO. Yeah. So TekTonic is a wonderful program--
company. What they do is they actually recruit from workforce 
investment boards really top-quality candidates who are 
overlooked in the traditional world. They use the WIOA dollars 
to train. As soon as they are accepted into the program they 
are paid, I believe, $15 an hour.
    And then what TekTonic does is it is actually a web 
development company. So we have dozens of clients who pay us to 
develop websites. We immediately put those people right after 
there through a short training program off of WIOA into actual 
work where they are getting paid far above minimum wage. These 
are highly functioning people.
    And then it solves two problems because at the end of the 
program they are actually then--we encourage after someone has 
done 1,000 hours to be hired by the ultimate company. So that 
is how it functions as an apprenticeship program.
    Ms. DAVIS. And so when we talk about a registered program, 
and I think the Ranking, Chair, and I certainly have a great 
deal of interest in this, but sometimes there are some 
differences in terms of how Federal dollars are invested, where 
they are invested, and whether or not we need to ensure that 
the programs are portable.
    Mr. PIANKO. Yeah, and I want to point out one issue around 
diversity which I think is very important, that eliminating 
friction from students matters. So TekTonic has an extremely 
diverse population, 82 percent of the population is diverse. If 
you look at a picture it will look like America. Thirty-three 
percent are female. This is in a coding environment. Thirty-
seven percent are people of color and 30 percent, perhaps most 
importantly, are veterans.
    And so I think what you are seeing is if you allow employer 
pay models to take over, you enable a much more diverse 
workforce in our technology community and the high wage jobs 
that go along with it. And I think that is critically 
important. We are seeing that.
    Make schools another example. I won't go on, but.
    Ms. DAVIS. Yeah. Would you say, also, though, that the 
standards that they have set as being a registered program also 
has benefit and may be what drives in many cases the 
opportunity for them to receive that investment from the 
Federal Government?
    Mr. PIANKO. Yeah, I think the registration program overall 
is useful. I am not sure it is a sine quo non. I am not sure it 
is like the only thing that matters. I think actually employer 
acceptance is a lot more important. And I think the 
registration process tries to get at that. I think the 
registration process was designed for a different age.
    Ms. DAVIS. Yeah.
    Mr. PIANKO. So as we look into software and other areas, I 
would encourage us to think about how we can modernize that.
    Ms. DAVIS. Yeah. I think the other thing that is critical 
there is we have a number of states that actually don't have 
any oversight for apprenticeship programs. So that is one of 
the things in terms of the infrastructure that we need to 
build.
    But I also wanted to just mention that, you know, we are 
talking about investment now and you mentioned a billion 
dollars and, in fact, that Secretary DeVos talked about this 
today. I think if we were to look at the European models, which 
we have touted and we see the infrastructure that has been 
developed there, not just with the businesses, but also with 
the school system, that is really critical in terms of 
counselors and advice that students get, data, et cetera, they 
are spending a whole lot more. I mean, ratios to what they are 
doing, they obviously have been at it a whole lot longer than 
we have and they have that history.
    So I think we just want to acknowledge that I am glad that 
we are moving in that direction, but we are really not 
investing in the way that we should if, in fact, we believe 
that this is one of the ways in which we really can address 
some of these systemic problems, but also generally just the 
workforce development that we need in this country.
    Mr. PIANKO. I think you are on exactly our point. We don't 
invest in the apprenticeship piece, but we invest a lot in the 
education piece. And so I think reallocating some of those 
dollars to better reflect what we are trying to accomplish with 
education and workforce is really critical. So I welcome that 
suggestion.
    Ms. DAVIS. Thank you very much.
    Chairman SCOTT. Thank you. The gentleman from Maryland, Mr. 
Trone.
    Mr. TRONE. Thank you, Mr. Chairman. Roughly 600,000 
individuals are released from incarceration every year. On July 
19th, the BOP will update their records this year based on 
additional sentence reduction, based on the first--good 
behavior and the First Step Act. So more than ever are going to 
be released shortly coming up.
    Can we just run through the four folks, just two quick 
bullets, what you think are the top first and second points 
that we should be digging into to have a strategy backed by 
research, research, what works and what doesn't to have 
successful reintegration? Start over with Ms. Bird.
    Ms. BIRD. Yeah, two quick points. One is that reintegration 
actually does not start at the point of reentry. Reintegration 
actually starts before. And so a couple of things. To WIOA, we 
could think about the floor that is set to support correctional 
education and increase that for adult education. Just 6 percent 
of folks who are incarcerated have a postsecondary education 
and 30 percent lack a high school diploma. So that is one quick 
thing with some research backed up.
    Mr. PIANKO. This is not my area of expertise, so if I could 
yield my time to Ms. Bird or another panelist.
    Ms. BIRD. Well, I will go on one more--
    Mr. TRONE. Do another one.
    Ms. BIRD.--one more thing that we can definitely do. As we 
talk about reentry, we talk about a couple of different things. 
Reentry is really important not only for the individuals 
themselves, but their families and all the collateral 
consequences. So another thing we can do, as we already 
discussed, is think about employers and hiring practices, so 
that whether that is the Ban the Box effort coupled with 
workforce development board partnerships that can create 
pathways to work will be important.
    Mr. TRONE. Mr. Roos?
    Mr. ROOS. Again, not my level of expertise either, but what 
I will say is we have referenced them a couple of times today 
is the Office of Vocational Rehabilitation. A lot of support is 
in place for people who have been incarcerated getting off to a 
good start, getting those supports in place, and the services 
needed from the get-go to be successful in transitioning back 
into the workforce.
    Ms. MCCANN. Again, totally outside of my wheelhouse, so I 
would just advocate that any efforts not ignore the needs of 
older workers who are reentering the workforce.
    Mr. TRONE. Let us go back to the Ban the Box. Thirty-four 
states and more than 150 cities have adopted a Ban the Box 
policy providing applicants a fair chance at employment, 
removing the conviction history from job apps, delaying 
background checks. At this point, three-quarters of the U.S. 
population lives in a jurisdiction that has some kind of Ban 
the Box.
    My company has personal experience in this area. I have 
over 7,000 employees. We banned the box a number of years ago. 
We have hired hundreds-plus of folks in Ban the Box. And what 
we are getting is better retention rates, a win, a second 
chance for folks that works out better for everyone.
    So is it time for Congress, Ms. Bird, to expand Ban the 
Box, fair chance hiring to the private sector across the 
country?
    Ms. BIRD. Well, yes, simply put. The evidence does bear out 
that there does need to be, again, some Federal role to help 
support and incentivize the private sector to do this. And also 
that folks who are returning from incarceration need to be 
judged on their own merits, not anything in their past, based 
on what they can do and their employability skills.
    Mr. TRONE. What do you think is the key to convince 
employers? Because it needs to be a partnership between 
employers and the government and the BOP. How do we convince 
employers that these folks who have a lower level of skillset 
and we got to--it is key is starting before release, I 
completely agree. What do we do to convince these companies 
that they need to be aggressively looking and getting the word 
out that they are looking for great workers who want a second 
chance?
    Ms. BIRD. Yeah. Well, a number of employers are already 
doing it in partnership. So we have a number of hospitals, for 
example, in Baltimore, Johns Hopkins, who are really 
considering the--
    Mr. TRONE. But 55 percent of the folks, 1 year out, never 
get a job.
    Ms. BIRD. Yeah.
    Mr. TRONE. So the number is not working for us.
    Ms. BIRD. Yes.
    Mr. TRONE. Fifty-five percent no job.
    Ms. BIRD. Yes. And so one of the things I think that we 
definitely need to do is to look at where it is happening 
around the country and to assess how are they changing their 
human resources policies. Because once the workers are in, 
whether they are a young worker or an old worker who has been 
impacted by the criminal justice system, they do have higher 
retention rates. So that is do a little bit of learning of what 
is happening around the country and lift it up at the Federal 
level.
    Mr. TRONE. Okay, thank you.
    Chairman SCOTT. Thank you. The gentlelady from Michigan, 
Ms. Stevens.
    Ms. STEVENS. Thank you, Mr. Chairman, for this important 
and timely hearing. I represent a suburban community in 
Michigan and this topic is critically important to my district, 
a district that has a robust automotive supply chain, a 
manufacturing economy that is frequently changing, and 
questions come up around age discrimination, questions come up 
around when people lose their job at age 50 and they have got 
to reapply for a new job and where they are going to go. So my 
questions today are going to center on that.
    And they are also going to focus on the fact that when 
somebody loses their job in their fifties and is unemployed for 
a long period of time, they cannot access Medicare until age 
65, so we have this gap. And we know that only 3 percent of 
employees experiencing age discrimination in the workplace when 
they are actually in the workplace have filed complaints with 
their employers or the government according to the EEOC report. 
And yet research shows that up to 60 percent of individuals 
have experienced or witnessed age discrimination in the 
workplace.
    So if you don't all mind, and maybe, Ms. McCann, you could 
take this one, but is age discrimination being normalized?
    Ms. MCCANN. Unfortunately, I think yes. I think we actually 
are learning to discriminate against ourselves. It is just an 
acceptable ism in this society. And I think the 3 percent 
figure is an illustration of that. And I think so many people 
view it as futile to bring an age discrimination claim.
    And you mentioned the cost of health insurance. A lot of 
workers, when they know that they are going to fight face this 
heightened burden of proof in an age discrimination case, say I 
would rather take the resources, both my time, my emotional 
energy, and my monetary resources, and use that to pay for 
health insurance or pay for my kid's college education or pay 
my mortgage rather than try to win an age discrimination case.
    Ms. STEVENS. Well, I am a proud cosponsor of the Protecting 
Older Workers Against Discrimination Act. There is obviously 
needed legislation and there is also this cultural conversation 
that we need to have around our workforce. And this is what the 
Ed and Labor Committee, by the way, is prioritizing as part of 
our cultural values, the value of work, that you matter.
    So let us talk about the legislation for a minute. If this 
important piece of bipartisan legislation was enacted how does 
this affect the EEOC's effectiveness in countering unlawful age 
discrimination cases?
    Ms. MCCANN. I think it would help the EEOC immensely 
because, again, we would restore the burden of proof to age 
discrimination claims. They would not--as private plaintiffs as 
well, they would not have to produce more quantitative, you 
know, more evidence and more compelling evidence to prove age 
discrimination. It is really critical and important.
    Civil rights statutes don't just compensate victims. It 
deters future discrimination. So if the EEOC was able to bring 
and be more successful in age discrimination cases, it would 
deter future discrimination, as well.
    Ms. STEVENS. Well, we are grateful to our AARP for your 
work in this because it is not just retirees. It is older 
working Americans that you represent, as well.
    And I want to cite this study, Ms. McCann, if you have 
anything else you would want to chime in on this. In a recent 
AARP study researchers sent over 40,000 resumes to apply for 
more than 13,000 job openings posted online in 12 cities to 
test for age discrimination. They responded to each posting 
with three resumes representing different age groups: young, 
middle-aged, and older. Even though all had similar skills, 
older candidates received far fewer callbacks than young or 
middle-aged workers. What does this data tell us, Ms. McCann?
    Ms. MCCANN. I think it confirms what every long-term 
unemployed older worker knows in their gut: that age 
discrimination is going on. When they send out those resumes, 
when they press the Apply button online, and never hear back, 
they have this gut feeling that I think it is my age. And 
research such as that confirms that, yes, when you do have 
similar resumes, similar candidates, and the older worker is 
not getting the interviews, the callbacks, that age is at play 
in the hiring.
    Ms. STEVENS. Thank you. And I yield back the remainder of 
my time.
    Chairman SCOTT. Thank you. The gentleman from New York, Mr. 
Morelle.
    Mr. MORELLE. Thank you, Mr. Chair. I want to thank you for 
holding yet another important hearing in this Committee, which 
has really been great over the last several weeks and all the 
different topics we are taking. And today to discuss the 
barriers to employment and effective methods to help 
disconnected individual reengage in our communities and pursue 
meaningful opportunities, particularly in light of the 
challenges we face in terms of a labor shortage expected to 
last in the United States for many years.
    We know that our communities are best served when people 
are actively participating in the workforce. When individuals 
are disconnected they become isolated and miss out on critical 
growth opportunities.
    I did want to take a moment to focus on young people, often 
referred to as opportunity youth, who fall behind in school and 
miss out on basic foundational skills. As a result, prospects 
for a stable and productive life become increasingly 
unattainable. In my home State of New York, there are other 
250,000 opportunity youth. These young people have been left 
behind and we are missing out on their potential strength in 
communities to fill the gaps in our workforce and create a 
better life for their families and themselves. Identifying at-
risk youth and taking preventive measures to keep them engaged 
in school and our workforce is critical to decreasing the 
number of disconnected youth in our Nation.
    In my district of Rochester, New York, our community has 
recognized this need for preventive measures and taken 
innovative steps to provide the tools, training, and support to 
keep students from falling through the cracks and missing out 
on the chance to lead a full and productive life. And I wanted 
to just highlight two quickly, if I might.
    One such effort, the Multicraft Apprentice Preparation 
Program, or MAPP, is a unique partnership between the building 
trades and historically disadvantaged youth. MAPP is dedicated 
to helping those facing a risk or facing the devastating 
impacts of poverty by training and engaging youth in building 
and construction trade apprenticeships, and they have been a 
very, very effective organization in the construction trades.
    Enacting preventive measures within schools is another key 
piece of the puzzle. In my district a partnership between East 
High School and the University of Rochester has completely 
transformed the outlook of the once failing high school. East 
High integrates a myriad of systems that provide comprehensive 
and high-quality services to support a diverse student body.
    The school uses a restorative justice approach with 
systematic support of counselors, social workers, and 
comprehensive health services for those students. They are also 
committed to promoting the social and emotional health of 
teachers, students, and their families.
    And I am proud to say that in just the first 3 years the 
graduation rate has gone from 33 percent to 61 percent of 
students. Suspensions are down and test scores have increased.
    These programs demonstrate that through meaningful 
partnerships, holistic approaches to education, and commitment 
from the local, state, and Federal level we can keep students 
engaged and build our workforce and strengthen our communities 
and economy.
    And I would like to ask, Ms. Bird, in your testimony you 
touched on the barriers to employment that come from the lack 
of investment in education, child care, and other critical 
supports. Could you just share your thoughts on the importance 
of a holistic approach to education and the importance of 
integrating support systems? Something I am very interested in 
as it relates to social, educational, and healthcare services 
to help reduce the number of opportunity youth in the country.
    Ms. BIRD. Sure. All of what you said is critical and I 
really commend the work that is happening locally in your 
district.
    So as you already articulated, there was no one-size-fits-
all. We have to work on school discipline and school climate 
issues, so that young people don't get pushed out of school and 
leave prematurely. And so restorative justice strategies are an 
important ingredient to that comprehensiveness that we need to 
focus on.
    But at the same time, for young people who aren't in a 
traditional school system, we have to figure out ways to 
reengage them, and that may be through a program that is 
supported through the WIOA or through a community-based 
organization. And so that includes partnerships like with the 
building trades.
    And apprenticeship is really important, but for 
opportunities they need on ramp sometimes. And so we need to 
really think about what is the role of pre-apprenticeship in 
terms of workforce preparation, work readiness, and all the 
other supportive services?
    So absolutely, a supportive services model is one that we 
should really be thinking about.
    Mr. MORELLE. I appreciate that, particularly the comments 
about the pre-apprentice, which I am a big supporter of.
    I would just like to also follow up. One of the things that 
I think is so important is that we remember individuals come 
from families. And if you could give me maybe just a few 
seconds your thoughts on how we might support families so that 
they continue to support those young people who are struggling, 
if you have any thoughts on that as it relates to barriers.
    Ms. BIRD. Yeah. So at CLASP we have done some research on 
low-income families and we have found that many young people 
are living in families where they are working more than one job 
and that does not allow them the fair wages that they need or 
the support of schedules, as well as the benefits that they 
need, like paid family medical leave. So we have to support 
what happens in families as well as the young people, again, as 
a result of segregation, isolation. We need to do all of those 
things in order to put young people on a pathway.
    Mr. MORELLE. Thank you to do all the witnesses. And I yield 
back my time, Mr. Chair.
    Chairman SCOTT. Thank you. The gentlelady from Nevada--
excuse me, the gentleman from Michigan, Mr. Levin. I am sorry.
    Mr. LEVIN. Thank you, Mr. Chairman. And the gentlewoman 
from Nevada's time is coming soon, I am sure.
    I just want to start by thanking the Chairman for his 
really tremendous leadership in this area. These barriers to 
employment are so important to overcome and we have got bills 
we are moving and I am very grateful for that.
    And also to thank Mr. Gross. There is nothing requiring him 
to be here. He is out here as a champion for justice for older 
workers, and I want to thank you so much, sir, for your ongoing 
efforts in this regard.
    Ms. McCann, I want to ask you a broader question really 
beyond POWADA what we should be doing. It is so important that 
we pass it. Obviously I am an original cosponsor. But, you 
know, I used to run the workforce system in the State of 
Michigan and when we created our No Worker Left Behind program 
and put 162,000 workers back to school to study for in-demand 
jobs in community colleges and universities and so forth, so 
many of them were older Americans who had been unjustly, you 
know, terminated or separated from employment.
    I think of the gentleman who had been in college and then 
his dad had a heart attack. And mom said, you know, we all have 
to pitch in here. And then here he was running a retail 
establishment, I will just say, in Bay City, Michigan, and they 
looked at him and they basically said, wait, we can get some 
much younger person at a less price and they made some excuse. 
And under our current legal regime, you know, he couldn't 
obtain justice.
    So this is affecting so many workers. What in addition to 
POWADA should we be looking at legislatively or otherwise?
    Ms. MCCANN. Thank you for that question. As you say, POWADA 
is not going to fix everything. And some day AARP hopes for the 
same sort of restoration act for the AEDA that the American 
With Disabilities Act got in 2008. So there are a couple things 
I will mention.
    I mean, just last year, Representative Grothman introduced 
a bill that would expand the coverage of the AEDA. It would 
require employers with 15 or more employees instead of 20 or 
more employees to not discriminate based on age. A modest 
change, but would have an important impact.
    I think most critically we need to make sure job applicants 
are protected given the rampant hiring discrimination and the 
most recent, you know, media attention to the targeting based 
on age on Facebook and other platforms. But yet the courts are 
saying that job applicants cannot even have their day in court 
to attempt to prove that these policies and practices 
discriminate against them based on age.
    Mr. LEVIN. Thank you. Well, let me pick up on that comment 
and ask a question of Ms. Bird. I so appreciated your 
testimony.
    Another area that was super important to me personally and 
I thought we made some progress, but not nearly enough, in 
Michigan was prisoner reentry programs. And so we haven't 
talked enough about that this morning. It is so hard to get a 
job for a returning citizen because of all the kinds of 
discrimination they face. Can you just speak to, you know, what 
you think we need to do to help people get jobs? And there is 
nothing more important to reducing recidivism rates than 
getting people who have been incarcerated a good job and a way 
to be productive on the outside.
    Ms. BIRD. Yeah. So I hate to be repetitive, but I am going 
to say it again, is that we really have to think about how 
reentry starts before folks go home. And so what that means is 
investing in the types of correctional education while people 
are incarcerated and also lifting the ban on Pell for people 
while they are incarcerated are two things. Because you don't 
just have some kind of magic wand when you are released and 
says, hey, you have all the skills that you need. And so we 
need to focus on that.
    We also, again, need to do all the kinds of things in 
partnership with the private sector to ensure that we reduce 
the hiring barriers that they face.
    Mr. LEVIN. All right, thank you very much. Mr. Chairman, I 
yield back.
    Chairman SCOTT. Thank you. Now the gentlelady from Nevada, 
Ms. Lee.
    Ms. LEE. Thank you, Mr. Chairman. And I want to thank all 
of you for being here today. I want to thank the Chairman for 
having this incredibly important hearing.
    This is an issue that has such important resonance for me. 
My father was laid off at the age of 56 and, sadly, never found 
gainful employment after that, and really watched him suffer 
with depression the rest of his life and so taking on this 
issue and also looking at how we are evolving in this economy. 
It is not just the skills that are changing, that are, you 
know, that are going to help people retain employment. But it 
is also looking at the effect of age and our aging supply on 
our economy just not only from an employment point of view, but 
also family.
    And in my State of Nevada we have some specific challenges 
overall. Nevada is one of five states whose 65-plus population 
has increased by 50 percent or more between 2005 and 2015. And 
we also have a sizeable population of older Americans in our 
rural areas. And last week, in this Committee I was also proud 
to participate in the Older American Act and work on 
legislation that is critical to ensure that we are in tune with 
this important segment of our population.
    Ms. McCann, I just want to discuss with you the viability 
of older workers staying around longer in the labor market. And 
it seems that Congress has made it necessary for them to do 
that by raising the retirement age in order to collect Social 
Security. In fact, some people in this Congress are considering 
raising the age even further.
    And given that we know that Social Security plays such a 
critical role in lifting millions of people out of poverty, 
specifically about 15 million Americans over the age of 65, 
what would be the impact on the economy of raising the 
retirement age without addressing age discrimination in the 
labor market?
    Ms. MCCANN. Thank you for that question. I do think that 
raising the Social Security age without considering the impact 
of age discrimination is very shortsighted. It exacerbates an 
already very significant problem. So the vast majority of older 
workers are working because they need the money. And yet, I 
talked about hiring discrimination, so if they are trying to 
find a job and they can't get one and then they have to take 
their Social Security and it is reduced because of the higher 
level for receiving full benefits, they are facing lower Social 
Security benefits for life and it is going to result in greater 
levels of senior poverty.
    Ms. LEE. Yeah, we are definitely seeing that. I can't tell 
you how many times in my community when I am out whether it 
is--you know, I am seeing older and older Americans out trying 
to make ends meet. So incredibly important.
    I also I wanted to follow up. You know, as you know, 
today's workforce is more mobile than it has ever been. Workers 
are able to stay at a job and move around onto the next, 
hopefully most often for higher pay. Would you say that is true 
for older Americans, as well?
    Ms. MCCANN. Actually it is one of the greatest assumptions 
and stereotypes that older workers are not going to stay in a 
position very long because they are just waiting till they are 
able to retire. And the research shows the opposite, that they 
have significantly longer tenure than younger individuals. And 
it is no, you know, black mark against the younger workers. 
They are just following the money. They don't have the defined 
benefit pension plans and other benefits that caused earlier 
generations to stay for an employer for their entire career.
    But, unfortunately, the assumption is still there, that it 
is the older worker that is going to leave soon and not the 
younger worker. And I see those type of cases all the time 
where someone is denied a promotion or denied training 
opportunities because of the assumption that they won't be 
there very long.
    Ms. LEE. Yeah. I want to follow up, also, along the lines 
of automation in terms of not only how it affects 
discrimination, but also what is the effect on older workers in 
the workforce transitions that will be needed to transition 
workers into occupational categories. Can you talk about how 
that pertains, your perspectives on that, with older Americans?
    Ms. MCCANN. Sure. I mean, I think our country underperforms 
in our efforts to help displaced workers back into the labor 
force when they have lost their jobs due to automation or 
outsourcing to a contingent workforce. And so we definitely 
need more funding for our workforce development systems. We 
need to focus on some workforce development centers, the Senior 
Community Service Employment Program, trade adjustment 
assistance and others. It is very important for older workers.
    Ms. LEE. Great. Thank you very much for your time. I yield 
back. Thank you.
    Chairman SCOTT. Thank you. The gentleman from Virginia, Mr. 
Cline.
    Mr. CLINE. Thank you, Mr. Chairman. I thank the witnesses 
for appearing today.
    We have the lowest unemployment rate in 49 years, but yet 
only 13 percent of the population believes that college 
graduates are well-prepared for success in the workplace. Part 
of this issue comes from more than 51 percent of students 
wishing they could change their major, but other parts stem 
from that college or degree simply not being a good fit. 
Students are individuals and as such we should be encouraging 
the best fit for each. There are many opportunities that work 
for students beside just baccalaureate educations, and as 
lawmakers it is our duty that opportunity and flexibility is 
extended to a variety of professional paths, including career 
and technical.
    So I would ask Mr. Pianko, how can the private sector do a 
better job of partnering with postsecondary institutions to 
ensure the proper skills are being developed so that the 
workforce gap closes even further?
    Mr. PIANKO. Yeah, thank you. I think what we have talked 
about today is that there needs to be a new class of 
intermediaries that are private sector in nature primarily 
between education and employment. And what we have seen happen 
is that too many times when you go through college, you don't 
get the result that you want and--whether you drop out or you 
graduate and you don't get a job.
    My colleagues Ryan Craig and Cassidy Leventhal just did a 
whole--listed 250 alternative pathways to employment. And I 
think you are going to see alternative pathways to employment 
grow and around the edges of higher education. And I think you 
are going to see higher education change because you are going 
to see higher education need to adapt some of those models. 
Otherwise, you are already seeing enrollments going down for 
the reasons you cited. And I don't think that is going to end.
    Mr. CLINE. Exactly. And with just 58 percent of students 
completing their education within six years, financial issues 
are often being cited as a common issue with completion. Do you 
have some steps that you would suggest that we take to address 
this specifically?
    Mr. PIANKO. Yeah. The fundamental problem here, the reason 
ROI has gone down, right, return on investment, and why it 
suddenly doesn't make sense anymore for a lot of people to 
think about college is because--not because the wage premium 
hasn't gone done, right? You can still make more if you go to 
college. It is because the cost of college has gone up.
    And so, you know, there are a lot of reasons, people have 
written doctoral theses on why the cost of college has gone up, 
but the cost of college has exceeded the rate of inflation for 
about 30 years by about 3 percent a year. So at this point it 
takes someone working about 2,000 hours a year to pay for 
college if they can, even in a state school, whereas if you 
went to school in the 1960s it would have taken you about 200 
hours.
    And so you have this massive explosion of cost with 
continued wage premium, but not enough to justify it. And so I 
would encourage you to consider ways to limit the rising cost 
of college. And I think a lot of it has to do with how our 
Federal financial aid system is structured.
    And so you smiled at that.
    Mr. CLINE. Can you elaborate on that?
    Mr. PIANKO. We can go back and forth on that one, but.
    Mr. CLINE. No, I agree with you. Can you elaborate on that?
    Mr. PIANKO. Yeah. If you provide a good and you provide 
that level of subsidy for a good, costs will go up and that is 
how it works.
    Mr. CLINE. Do you feel that there ought to be some 
increased accountability not only on the part of the 
institution with respect to their costs, but also on the part 
of the Federal Government, or reinjecting some private sector 
role there and that will bring with it some interest in 
limiting how much can be borrowed by a student?
    Mr. PIANKO. Look, the Federal government right now sets the 
limit for how much you can borrow at each stage of your 
education. And especially at the graduate level, that is where 
most people get into trouble. It is really hard with the way 
the limits are set up for undergrads to get into too much 
trouble with Federal student loans. The real explosion is on 
the private side for people who choose very expensive schools 
or graduate programs.
    And so, you know, we should be looking at creating 
mechanisms for skin in the game where the economic result of 
college is defined by the return on investment that students 
are getting for many people.
    Mr. CLINE. As someone who is still paying off his law 
loans, I agree with you.
    Mr. PIANKO. I am, as well, incidentally.
    Mr. CLINE. With that, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. The gentlelady from Washington, 
Ms. Jayapal.
    Ms. JAYAPAL. Thank you, Mr. Chairman. And I just want to 
say thank you so much for your leadership on these critical 
issues and continuing to just be unflagging in breaking down 
unfair barriers to unemployment. Thank you all for being here.
    My home State, Washington State, just ended the subminimum 
wage. And during the testimony in the legislature, Josh Major, 
a worker with a disability, told the legislature, ``Just 
because I dance to the rhythm of the rain doesn't mean I should 
be underpaid. I am a great worker and bring many positive 
attributes to my job and deserve an equal and livable wage.''
    Mr. Major raised his voice alongside many other workers to 
demand this change, and I just thought that was such a 
beautiful statement.
    Mr. Roos, you are in senior leadership at ACHIEVA, a 
Pennsylvania organization that supports people with 
disabilities to access employment. And your organization is 
integrated. You employ people with and without disabilities and 
your employment programs pay at or above the minimum wage. 
Thank you for that.
    Why is it so important to listen to the concerns of self 
advocates, like Joshua Major, who demanded an equal and livable 
wage?
    Mr. ROOS. Great question. Thank you for asking. And my 
response to that is that for years people languishing in 
workshops, their voices just haven't been heard. We haven't 
listened. For those over 100 people that are now competitively 
employed, at least over 50 percent of their team members who 
represent them always told us that they couldn't be employed. 
They didn't have the skills to be employed. There weren't 
alternatives for them from the workshop. And those 100-some 
placements prove otherwise.
    So to reiterate, their voices haven't been heard or others 
have spoken for them over the years. That has been very 
detrimental to their progression to competitive, integrated 
employment.
    Ms. JAYAPAL. Thank you. I just think it is an incredibly 
important community, workers with disabilities, and I think we 
should be doing everything we can in Congress to end the 
subminimum wage and answer Mr. Major's concerns.
    Ms. Bird, let me turn to you. Many Americans continue to 
face an unnecessary barrier to employment as a result of faulty 
or incomplete criminal records released by the FBI for use in 
employment and licensing decisions. I know this is something 
that the Chairman cares very much about, has a bill around 
this. I care very much about it. We are going to be talking 
about it tomorrow during our markup of the Dream and TPS bills 
in the House Judiciary Committee.
    Local law enforcement agencies routinely report arrest 
records to the FBI. However, these same groups often fail to 
report important information on the final outcome of an arrest 
of disposition of a criminal case. Many of the gang databases 
have no real legitimacy to why somebody is in there and it is 
very difficult to get off.
    There are an estimated 1.8 million workers subject to FBI 
background checks that include faulty or incomplete 
information. There are Federal mandates that require criminal 
background reports to be complete and accurate. But a study 
conducted by the Urban Institute examining 75 major counties 
across the country found that roughly one-third of all arrests 
for felony charges did not result in an actual criminal 
conviction.
    Furthermore, criminal background checks can include 
convictions that occurred 7 years or more prior to an 
employee's application date. This can potential violate Federal 
statutes that limit record checks to 7 years. Arrest and 
convictions that have been expunged, but have not been removed 
from the criminal background records, can also unintentionally 
exclude qualified candidates.
    Can you tell me from your experience how significant is 
this problem? And what do you recommend be done to eliminate 
this barrier to employment?
    Ms. BIRD. Yeah. So I think you have already talked about 
how significant it is, and so one of the important steps is to 
really consider the Chairman's bill and to think about how does 
it work in tandem with the Workforce Innovation and Opportunity 
Act? And how does it work in tandem again with employers to 
reduce barriers to hiring?
    Ms. JAYAPAL. And how do you see them working together now 
or not working together now?
    Ms. BIRD. Well, we need to pass the bill and we have an 
opportunity as we think about reauthorization how do we bake in 
provisions that include reducing all the barriers, which one 
important piece is really making sure these records are 
accurate and we know they disproportionately impact people of 
color.
    Ms. JAYAPAL. Thank you. Another question for you. A new 
Federal Reserve Board study shows that while unemployed black 
and white workers are almost equally likely to have left their 
last job voluntarily, black workers were nearly twice as likely 
as whites to have been laid off or fired from their last job.
    And once black workers are out of a job, they experience 
longer spells of unemployment than white workers. Ms. Bird, how 
does race intersect with the barriers that we have talked about 
today? I feel like you have sort of touched on this in almost 
every answer, but I want to give you that opportunity.
    Ms. BIRD. Yeah, yeah. And thank you for that opportunity. I 
think we know what the research says and so what that means is 
how does the public system help support a subsidized employment 
system? Because the private sector is continuously 
discriminating at these workers, especially if you have been 
impacted by the criminal justice system. And so what the public 
sector essentially does is allow for access and proximity to 
work experience, to jobs. Transitional jobs, for example, is a 
very good strategy that I hope that the Congress considers.
    Ms. JAYAPAL. Thank you so much. I see my time has expired. 
Mr. Chairman, I ask unanimous consent to introduce for the 
record this report examining the role of job separations in 
black-white labor market disparities?
    Chairman SCOTT. Without objection.
    Ms. JAYAPAL. Thank you, Mr. Chairman. I yield back.
    Chairman SCOTT. The gentlelady from North Carolina.
    Ms. FOXX. Thank you, Mr. Chairman. And I want to thank all 
of our witnesses for being here today.
    Mr. Pianko, the Georgetown Center on Education Workforce 
estimated that over 95 percent of jobs created since the 
recession have been filled by those with at least some college 
education. Yet, you identified in your testimony that over 40 
percent of college graduates are underemployed because they 
took a job after graduating that does not require a degree.
    It appears employers are over-reliant on using a college 
diplomate as a candidate filter for their open jobs. To what 
extent is this contributing to the skills gap? Are there 
alternative metrics or indicators employers could use besides a 
baccalaureate degree to seek a qualified worker?
    Mr. PIANKO. Well, first of all, I would ask that you also 
consider the Federal Government's role in this, as well, 
because the Federal Government has similar requirements under a 
bachelor's degree. And so whatever I say about the private 
sector I would also ask that the public sector consider, as 
well, which is that too often companies or the government will 
put on a job application that you must have a college degree to 
get that job. And if you think about that, one of the more 
interesting stats that I have heard is that 50 percent of the 
people replacing somebody, they are replacing somebody who did 
not have a college degree. So you are effectively creating a 
situation where you are constantly having to skill-up, spend 
more money on education and training when other credentials 
would work.
    The entire mechanisms we use to hire, I know we have been 
focusing on older Americans, disabled workers, et cetera, it 
all comes back to what we call applicant tracking systems. One 
of the fundamental shifts we have had is that people are hiring 
through--you know, get 10,000 resumes, everybody hits submit on 
an application, and then who is reading that application is 
actually a computer right now. And so in the absence of the 
ability to meet somebody in person, you are screening out lots 
of people.
    So to answer your question very directly, I think that we 
should be move towards a more competency-based hiring system. 
We need to create the marketplace for competencies so that 
people from other backgrounds can take advantage of job 
opportunities.
    Ms. FOXX. Thank you for bringing forth the comment about 
the Federal government. I am concerned about that and it is a 
very appropriate thing to bring to our attention.
    You also said in your written testimony that younger people 
today are seeking summer entry level work at a much lower rate 
than previous generations. And you point out that this lower 
workforce participation likely has negative effects on soft 
skill development.
    How do college admission processes perpetuate this downward 
trend? And what can be done to make sure we reduce barriers to 
a young person's first job?
    Mr. PIANKO. The most important thing you can do for your 
kids is encourage them to go get a real job as early as 
possible, I believe, no matter what your background is. And I 
am a firm believer in that. College admissions counselors, 
though, have been preferencing unpaid internships and travel 
effectively, volunteer travel, over sort of the difficulties of 
work. And if you are able to work at the level that is required 
to pay 2,000 hours and still uphold a college--or, you know, 
get through high school, you deserve a much bigger badge for 
distance traveled than you do for being born to the right 
parents.
    Ms. FOXX. Thanks. I met with some people last week in the 
masonry industry and they told me about a student in a pre-
apprenticeship program who made $6,000 last summer working. So 
that is pretty impressive.
    Colleges are enrolling students, but not making sure they 
leave campus with the skills necessary to earn a good-paying 
job, Mr. Pianko. This leaves the job of teaching productive 
skills to business and industry, as you pointed out.
    What is the benefit of employers--what is the benefit to 
employers of investing directly in both formal and informal 
workforce development program for their employees? And what are 
some of the ways employers can reduce this hiring friction you 
identify in your testimony?
    Mr. PIANKO. First, I think someone who was a masonry pre-
apprentice and made $6,000 in the summer. And I think too 
often, you mentioned B.A. degrees, too often we devalue trade 
work and other skills that actually create real opportunity, 
economic opportunity for large populations and, you know, may 
impact Ms. Bird's testimony, as well.
    In terms of sort of the--I am sorry, I forgot your--I 
apologize. I was too busy answering your masonry. Just give me 
the quick prompt and I will come back to you.
    Ms. FOXX. Shouldn't have done that example.
    Mr. PIANKO. Yeah. So I loved your example so much that I 
went back to it.
    Ms. FOXX. Well, you have talked a lot in your comments 
about the employers directly investing in--
    Mr. PIANKO. Right. Yeah, and I think, you know, we are at a 
unique--and this is important for Congress to understand. We 
are at a unique point in time where employers are willing to 
pay to get people trained. If there is a time right now, I have 
listened to this testimony. I am not an expert on the legal 
issues that have been discussed here. What I can tell you is 
you are at a unique point in time where you can bring back 
these disenfranchised communities into the world of work.
    Our portfolio companies are overwhelmingly serving and 
getting people jobs without--usually with no government 
funding, no payment on behalf of the future employer, into 
high-paying, good jobs. Because an employer right now will pay 
$30,000 for someone who can code for them. I can train someone 
for 10 to 15.
    A hospital group will train someone, will pay $80,000 to 
recruit a nurse. I can train--Western Governors University, 
which operates in many of your states, can train someone for 
40. And if you are interested in getting a diverse workforce 
and repositioning underrepresented minorities into high-demand 
jobs, this employer pay model is one of the most critical 
things to accomplishing that mission.
    Ms. FOXX. Thank you, Mr. Chairman. But before I yield my 
time, I would like to say to Mr. Pianko we have to have a 
conversation after this hearing. You have violated a terrible--
    Mr. PIANKO. I wrote down a big note and crossed that off.
    Ms. FOXX. Okay. We will talk after. Thank you.
    Chairman SCOTT. Thank you. I recognize myself for 5 
minutes.
    Let me follow through, Mr. Pianko, on that. As you know, 
you get a tax credit if you invest in equipment or technology 
that can make your operation more efficient, but you don't get 
a similar tax credit for educating your workforce. Should there 
be a similar tax credit?
    Mr. PIANKO. I would go much further than that, Mr. 
Chairman. I think you have a unique opportunity with HEA to 
actually integrate a massive funding stream into getting people 
jobs and I would strongly encourage you to consider that. I 
mean, yes, there should be a tax credit, but you can't really 
value--you can't eat tax credits. We need cash on the table.
    Chairman SCOTT. Thank you. Ms. McCann, did I understand you 
to say that you can actually prove age discrimination, but that 
is not enough?
    Ms. MCCANN. That is exactly what I said and that is what 
Mr. Gross did. He proved that age was a factor in his 
employer's decision to demote him, but since he was unable to 
also prove that it was the but-for decision, in other words 
that the employer would not have made the same decision without 
considering his age, he was unable to prevail.
    Chairman SCOTT. Who has the burden of proof to show that 
there was no other motivating force?
    Ms. MCCANN. Right now, under the Gross decision, the 
employee, who is not in the position that the employer is to 
make that showing.
    Chairman SCOTT. Ms. Bird, you said we know what works on 
incarcerated and you mentioned Ban the Box. Do you have 
evidence to show that actually works?
    Ms. BIRD. Yes, there has been evidence to show that it 
actually works. But we also know it doesn't go far enough 
because there still is discrimination against workers of color 
as well as young people. So we have to think about Ban the Box 
as well as other strategies.
    Chairman SCOTT. Has the EEOC suggested that if you don't 
have an individualized assessment of the criminal record that 
it could constitute illegal discrimination? Is that being used 
as a defense against improper use of criminal records?
    Ms. BIRD. I am not able to answer that. I am not an expert 
in what the EEOC does.
    Chairman SCOTT. You mentioned the inaccurate criminal 
background checks. Can you say a word about how bad a problem 
that is?
    Ms. BIRD. Yes, I believe the congresswoman already 
articulated how bad it is and how inaccurate it is in terms of 
arrests to conviction and so forth. And so it is really 
critical that is cleaned up and your act will help to do that, 
and, also, to increase employment for folks who are returning.
    Chairman SCOTT. Thank you. I believe the gentleman from 
Wisconsin had one question.
    Mr. GROTHMAN. For Mr. Roos. Again, in your testimony you 
said too many current certificate holders will not take that 
approach under their own volition. In other words, we have to 
force them out.
    There is a young gal with disabilities in my district who 
had a job, about 8 hours a week outside the work shelter and 
the other 30 hours a week in the work shelter. One employee 
asked her which job she preferred and she said I like my other 
job, too, but all my friends are here. In other words, she 
preferred the work center.
    Now, your testimony says that we have to take away these 
people's own volition. How do you justify to yourself just 
because people were born with a different ability than you or I 
that they no longer have the right to choose where they want to 
work?
    Mr. ROOS. I don't believe that we have the right to pay any 
person, disability or not, less than the minimum wage. This is 
not taking away the rights of anyone. This is creating 
opportunities for people with disabilities that they have not 
been able to experience.
    Mr. GROTHMAN. No, she has both jobs, understand. You are 
not answering the question. She has jobs in both places. She 
knows what it is like to work in both places and she prefers to 
work in the workshop. Why do we take that opportunity away from 
her?
    Mr. ROOS. Let us remember what workshops are designed to 
do. Workshops are designed to develop the skills in order to 
become competitively employed. So in your example, she has 
shown that she has the skills to become competitively employed, 
so why have to rely back on a workshop that is supposed to 
develop those skills to achieve an outcome?
    Chairman SCOTT. Reclaiming my time. Let me follow through, 
Mr. Roos, on that. There is in the transition bill funding to 
support transitional skills to get people out of the workshop 
into competitive employment. There is also the possibility for 
those that, frankly, cannot make the minimum wage--earn the 
minimum wage--wage subsidies. Does that cover the problems that 
the gentleman from Wisconsin articulated?
    Mr. ROOS. I think that it may and I think all of the tenets 
of the Act support current 14(c) holders in order to be able to 
achieve these outcomes and takes into consideration those very 
specific circumstances which you are describing and, again, can 
create that whole community life for people currently in 
workshops.
    Chairman SCOTT. Thank you. That ends the Member questions. 
The gentlelady from North Carolina, do you have a closing 
statement?
    Ms. FOXX. Yes, sir.
    Chairman SCOTT. The gentlelady is recognized.
    Ms. FOXX. Thank you, Mr. Chairman. And once again, I want 
to thank our witnesses for being here today.
    As I said in my opening remarks, this hearing on 
eliminating barriers to employment has focused on more, more, 
more Federal Government intervention and not what most people 
in this country understand, and that is that education and 
skills are the key to employment. High schools don't encourage 
students to work, but in many cases to volunteer, and that is a 
problem. Blaming amorphous entities or concepts such as the 
economy as structural barriers is a cop-out.
    The economy has created 7.1 million jobs that are unfilled. 
There is not one of us who doesn't hear from employers many 
times every week, I have got all these jobs, I can't find 
people with the skills. You cannot walk into any business or 
industry in this country and not see signs up, Help Wanted.
    It is easy to blame someone or something else for one's 
failures. We all do it. Perpetuating that mindset does not help 
anyone, but actually hurts a person by helping them avoid the 
truth.
    We have learned some lessons, I think, particularly from 
Mr. Pianko's testimony today. Number one, the current system of 
higher education is falling short and the cost to students, 
employers, and the economy is enormous, $1.5 trillion in debt 
for students. Forty percent of students are underemployed in 
their first job. And as I said earlier, there are 7 million-
plus unfilled jobs.
    The solution partly resides in the private sector with 
intermediaries bridging the divide between schools and 
employers. But the Federal approach to workforce development is 
to blame for perpetuating a failing system. As this Congress 
continues, this Committee must consider comprehensive and true 
reform to the Higher Education Act. Federal work study and the 
private sector partnerships, apprentice-style opportunities, 
renewed focus on outcomes for all students, requiring skin in 
the game for colleges and universities, all of those elements 
that were in the PROSPER Act, which passed this Committee last 
year.
    Federal requirements are stifling the interaction between 
businesses and college campuses and are setting up a generation 
of Americans for failures. Colleges and universities need to 
provide their students the opportunity to develop the skills 
necessary to succeed in the workplace.
    I remain committed to reforming the postsecondary system so 
it works for students. There is no issue more critical to 
securing a prosperous future for our Nation.
    I yield back, Mr. Chairman.
    Chairman SCOTT. Thank you. And again, I thank the witnesses 
for joining us for this important discussion on barriers to 
employment that keep too many Americans out of work. Obviously, 
skills education can certainly help.
    Today the Committee heard how older workers, workers with 
disabilities, disconnected youth, and returning citizens face 
discrimination and barriers to employment that undermine 
opportunities to take part in the benefits of work. These 
barriers have serious consequences for a wide range of 
communities. Older workers, for example, face obstacles to 
challenging workplace age discrimination. Workers with 
disabilities face outdated laws allowing them to be paid a 
subminimum wage. And millions of Americans disconnected from 
school or the workforce face structural obstacles to 
reentering.
    Yet what remains consistent across these obstacles is that 
when we work together to reduce these barriers, we strengthen 
America's workers, the economy, and our communities. 
Accordingly, Congress has a responsibility to ensure that all 
Americans can have access to employment and earn the financial 
stability and independence that come with work. By considering 
the Opening Doors for Youth Act, the Protecting Older Workers 
Against Discrimination Act, and the Transformation to 
Competitive Employment Act, we took an important step towards 
fulfilling that responsibility and empowering Americans shut 
out of the workforce to access rewarding careers.
    I look forward to working with my colleagues on both sides 
of the aisle to pass these bills and ensure that all Americans 
can take an active role in our country's workforce and 
contribute to our communities.
    Finally, I would like to ask unanimous consent to introduce 
into the record a letter of support for the Transformation to 
Competitive Employment Act from 19 national and 134 state and 
local disability organizations, the final report from the 
Advisory Committee on Increasing Competitive Integrated 
Employment for Individuals with Disabilities, convenened as 
required by WIOA, which recommended to Congress to pass a bill 
to phase out Section 14(c) while providing resources to expand 
the capacity of competitive integrated employment.
    In a recent report from the National Council on Disability, 
the independent Federal agency charged with advising the 
President, Congress, and other Federal agencies regarding 
disability policies and programs recommending that Congress 
pass a bill to phase out 14(c) while providing resources to 
expand the capacity of competitive employment; and a letter 
from Paralyzed Veterans of America in support of H.R. 1230, the 
Protecting Older Workers Against Discrimination Act.
    Is there further business to come before the Committee?
    If not, the Committee is now adjourned.
    [Additions submissions by Mrs. Foxx follow:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    National Disability Employment Policy: https://ncd.gov/
sites/default/files/Documents/NCD--Deal--Report--508.pdf
    Advisory Committee on Increasing Competitive Integrated 
Employment for Individuals with Disabilities (ACICIEID): 
https://www.dol.gov/sites/dolgov/files/odep/topics/pdf/
acicieid--final--report--9-8-16.pdf
    The State of Age Discrimination And Older Workers In The 
U.S. 50 Years After the Age Discrimination In Employment Act 
(ADEA): https://www.eeoc.gov/reports/state-age-discrimination-
and-older-workers-us-50-years-after-age-discrimination-
employment
    [Questions submitted for the record and their responses 
follow:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    [Whereupon, at 1:23 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
